<html>
<title> - U.S. ECONOMY, U.S. WORKERS, AND IMMIGRATION REFORM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
           U.S. ECONOMY, U.S. WORKERS, AND IMMIGRATION REFORM 
=======================================================================
                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2007

                               __________

                           Serial No. 110-34

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov
                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

35-117 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001






















                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
LINDA T. SANCHEZ, California
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel


















                            C O N T E N T S

                              ----------                              

                              MAY 3, 2007

                                                                   Page

                           OPENING STATEMENT

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     3
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................    50

                               WITNESSES

The Honorable Leon R. Sequeira, Assistant Secretary for Policy, 
  U.S. Department of Labor
  Oral Testimony.................................................     5
  Prepared Statement.............................................     8
Ms. Patricia A. Buckley, Ph.D., Senior Economic Advisor to the 
  Secretary, U.S. Department of Commerce
  Oral Testimony.................................................    17
  Prepared Statement.............................................    19
Mr. Peter R. Orszag, Ph.D., Director, Congressional Budget Office
  Oral Testimony.................................................    26
  Prepared Statement.............................................    28
Mr. Gerald D. Jaynes, Ph.D., Professor of Economics and African-
  American Studies, Yale University
  Oral Testimony.................................................    52
  Prepared Statement.............................................    54
Ms. Rachel M. Friedberg, Ph.D., Senior Lecturer in Economics, 
  Brown University
  Oral Testimony.................................................    62
  Prepared Statement.............................................    65
Mr. Wade Henderson, President and CEO, Leadership Conference on 
  Civil Rights
  Oral Testimony.................................................    68
  Prepared Statement.............................................    71
Mr. Vernon M. Briggs, Jr., Ph.D., Professor of Industrial and 
  Labor Relations, Cornell University
  Oral Testimony.................................................    79
  Prepared Statement.............................................    82

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Chairwoman, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     2
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................    50

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................   101
Letter from a majority of the minority Members of the 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law requesting a minority day of 
  hearing to the Honorable Zoe Lofgren, Chairwoman, Subcommittee 
  on Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................   102
``The Composite National'' by Frederick Douglass, submitted by 
  the Honorable John Conyers, Jr., Chairman, Committee on the 
  Judiciary......................................................   104
Letter from Eric N. Gutierrez, Legislative Staff Attorney, 
  Mexican American Legal Defense and Educational Fund to the 
  Honorable Zoe Lofgren, Chairwoman, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..   113
Answers to post-hearing questions posed by the Honorable Steve 
  King from the Honorable Leon R. Sequeira, Assistant Secretary 
  for Policy, U.S. Department of Labor...........................   115
Answers to post-hearing questions posed by the Honorable Steve 
  King from Patricia Buckley, Ph.D., Senior Economic Advisor to 
  the Secretary, U.S. Department of Commerce.....................   117
Answers to post-hearing questions posed by the Honorable Steve 
  King from Peter R. Orszag, Ph.D., Director, Congressional 
  Budget Office..................................................   118


           U.S. ECONOMY, U.S. WORKERS, AND IMMIGRATION REFORM

                              ----------                              


                         THURSDAY, MAY 3, 2007

                  House of Representatives,
Subcommittee on Immigration, Citizenship, Refugees, 
             Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to nall, at 3:22 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Gutierrez, Jackson Lee, 
Sanchez, Davis, Conyers, and King.
    Staff present: Ur Mendoza Jaddou, Chief Counsel; David 
Shahoulian, Majority Counsel; George Fishman, Minority Counsel; 
and Benjamin Staub, Professional Staff Member.
    Ms. Lofgren. The hearing of the Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and 
International Law will come to order.
    I would like to welcome the Immigration Subcommittee 
Members, our witnesses, and members of the public who are here 
today for the Subcommittee's seventh hearing on comprehensive 
immigration reform.
    I would like first to apologize for our tardiness in 
beginning the hearing. We had a series of votes on the House 
floor. That is the bad news. The good news is those were the 
last votes for today, so we will not be interrupted further by 
matters on the floor.
    In our first six hearings, we examined the need for 
comprehensive immigration to secure our borders, to address 
economic and demographic concerns, and for historical reasons. 
We examined the immigration reform in 1986 and 1996 in an 
effort to avoid the mistakes of the past. Last week, we 
considered the problems with and the proposed solutions for our 
current employment and worksite verification system. This 
Tuesday, we examined immigration point systems and whether such 
an immigration system is the right solution for our country.
    Today we are turning our attention to the effects of 
immigrants on the nation's economy, with particular attention 
to the native-born workforce.
    Recognizing the importance of this issue, the Subcommittee 
has gathered leading Government and academic experts to discuss 
the primary scholarship in this area. I am looking forward to 
the testimony from Government experts who will discuss the 
economic need for immigrant labor and the effect of immigrant 
workers on the employment and wages of native-born workers. We 
will then hear from a panel of labor economists and other 
witnesses who will further discuss the impacts of immigrant 
workers on the native-born workforce.
    Some have raised concerns that immigrant workers undermine 
the welfare of native-born workers by reducing wages and 
raising unemployment levels. Applying basic rules of supply and 
demand, this argument appears convincing. The more workers 
there are, the more competition there is for jobs. Hence, the 
downward pressure on wages and fewer available jobs.
    However, the experts on our panel today will explain to us 
that the majority of the scholarship indicates that simple 
economic arguments of supply and demand fail to reflect the 
economic complexities of the real world of immigration. They 
will explain that immigrants don't just fill jobs, they also 
create them in a variety of ways, thereby increasing demand for 
native-born workers and actually increasing wages throughout 
most of the economy.
    The witnesses will also show that there is some downward 
effect on wages at some levels. However, the weight of the 
scholarship shows that this effect is much smaller than some 
have argued, even as small as 1 percent.
    Thank you again to our distinguished witnesses for being 
here today to help us sort through what is a complex and very 
important issue for Americans, American jobs, and our economy.
    [The opening statement of Ms. Lofgren follows:]
 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    I would like to welcome the Immigration Subcommittee Members, our 
witnesses, and members of the public to the Subcommittee's seventh 
hearing on comprehensive immigration reform.
    In our first six hearings, we examined the need for comprehensive 
immigration to secure our borders, to address economic and demographic 
concerns, and for historical reasons. We have examined immigration 
reform in 1986 and 1996 in an effort to avoid the mistakes of the past. 
Last week we considered the problems with and proposed solutions for 
our current employment and worksite verification system. Just this 
Tuesday, we examined immigration point systems and whether such an 
immigration system is the right solution for our country.
    Today we are turning our attention to the effects of immigrants on 
the nation's economy, with particular attention to the native-born 
workforce.
    Recognizing the importance of this issue, the Subcommittee has 
gathered leading government and academic experts to discuss the primary 
scholarship in this area.
    I'm looking forward to the testimony from government experts who 
will discuss the economic need for immigrant labor and the effect of 
immigrant workers on the employment and wages of native-born workers. 
We will then hear from a panel of labor economists and other witnesses 
who will further discuss the impacts of immigrant workers on the 
native-born workforce.
    Some have raised concern that immigrant workers undermine the 
welfare of native-born workers by reducing wages and raising 
unemployment levels. Applying basic rules of supply and demand, this 
argument appears convincing--the more workers there are, the more 
competition there is for jobs, and hence a downward pressure on wages 
and fewer available jobs.
    However, the experts on our panel today will explain to us that the 
majority of the scholarship indicates that simple economic arguments of 
supply and demand fail to reflect the economic complexities of the real 
world of immigration. They will explain that immigrants don't just fill 
jobs; they also create them in various ways, thereby increasing demand 
for native-born workers and actually increasing their wages throughout 
most of the economy.
    The witnesses will also show that there is some downward effect on 
wages at some levels. However, the weight of the scholarship shows that 
this effect is much smaller than some have argued, even as small 1.1%.
    Thank you again to our distinguished witnesses for being here today 
to help us sort through what is a complex and very important issue for 
Americans, American jobs, and our economy.

    Ms. Lofgren. I would now like to recognize our 
distinguished Ranking Member, Congressman Steve King, for his 
opening statement.
    Mr. King?
    Mr. King. Thank you, Madam Chair.
    I very much appreciate you holding this hearing in this 
ongoing effort legitimately to educate the Members of this 
Subcommittee and, by osmosis, Members of the broader Judiciary 
Committee, the Members of Congress and people across this 
country, so that we can continue with this dialogue and 
hopefully arrive at a policy that is good for the future of 
America.
    But we all learned in school that Members of Congress 
debate policy and amend statutes to address the concerns of the 
American people. Protecting jobs and economic opportunity for 
Americans is one of the most important topics Congress must 
address.
    A comprehensive immigration reform bill, like the one being 
discussed by the Senate, the Administration and the open-
borders lobby, will not protect American jobs or the aspiration 
of so many Americans to better their lives. Importing millions 
of poorly educated foreign workers won't help our country but 
will only hinder its growth.
    Americans are conditioned to believe that such immigrants 
are necessary to our economy, because they supposedly take jobs 
Americans will not do. The reality is employers hire desperate 
aliens who will work for much less than Americans, driving 
wages down and making it impossible for American workers to 
compete.
    Even Alexander Aleinikoff, a very aptly named former 
Clinton administration INS official and current dean of the 
Georgetown University's Law Center, has stated that it is a 
myth to say that there is little or no competition between 
undocumented workers and American workers.
    And what about the claims that there are jobs Americans 
won't do? That claim is a slap in the face to the millions of 
U.S. citizens who go to work every day, working those very same 
jobs side by side. In fact, even in the occupations that have 
the highest percentage of illegal laborers, the vast majority 
of workers are Americans. Seventy-nine percent of all service 
workers are native-born. And according to the Department of 
Labor, construction workers currently have an 8.6 percent 
unemployment rate.
    Americans are willing to work at any job. The hottest, most 
difficult, dirtiest and dangerous job in the world is rooting 
terrorists out of Iraq. And Marines are doing that job for 
about $8.09 an hour.
    We have 69 million Americans who are of working age but who 
are not in the workforce. There are 6.9 million working illegal 
immigrants. We would only have to recruit one-tenth of the 
Americans not in the workforce in order to replace the illegal 
labor in America.
    Some say enforcement hasn't worked, so our only option is 
to amnesty millions of illegal immigrants. But enforcement has 
never been truly given a chance, because no Administration has 
taken it seriously.
    Just 2 weeks ago, this Subcommittee held a hearing 
exploring the 1986 Immigration Reform and Control Act. Every 
witness and most of the Members present at the hearing agreed 
that while the amnesty portion of that bill was executed, the 
employer sanctions provision never was.
    Now America's illegal immigration problem is worse than it 
was in 1986, and some are pushing to change the system. But we 
can't just change the system without regard to the effects of 
those changes on Americans.
    Americans are our primary interest. The effect of importing 
millions of foreign workers at lower wages and fewer jobs is 
against the American citizens. I know we have academics 
testifying today who will claim the opposite. But you don't 
have to look any further than what happened after recent ICE 
worksite enforcement actions to see the practical effects.
    After last year's enforcement actions at Georgia's Crider 
Inc, the company lost over 600 illegal workers. But Crider 
increased wages more than $1 an hour and within days hired 200 
legal workers. They continue to fill positions with legal 
workers.
    And just 3 weeks after the March 2007 ICE worksite 
enforcement action at Michael Bianco Incorporated in New 
Bedford, Massachusetts, 400 legal workers applied to fill the 
361 positions left by illegal immigrants who were deported.
    The companies were forced to raise wages and recruit local 
employees, many of whom had previously had a difficult time 
finding jobs.
    The American dream means you are the driver of your own 
destiny, and you can work hard to be successful. But you can't 
work hard toward that dream if your job is taken by someone 
willing to work for lower wages, or if wages in an entire 
occupation are depressed by illegal immigration.
    Our focus should be on creating an immigration policy that 
puts the interest of U.S. citizens first instead of the 
interest of citizens from foreign countries.
    And I would add in my opening remarks that we have had some 
serious and intense discussions about how to go about these 
hearings. There is an empty chair down there because I have 
been denied a witness to this panel.
    And I find no precedent in the history of this Immigration 
Subcommittee that would set that standard, but I do find that 
if we will be using the rules, it is important that the other 
side of this argument be heard.
    And so I hereby formally ask unanimous consent to introduce 
this letter into the record, requesting a minority hearing.
    And I thank you, Madam Chair, and I would yield back the 
balance of my time.
    [The letter referred to is inserted in the Appendix.]
    Ms. Lofgren. Thank you, Mr. King. I will certainly review 
this letter and act according with the rules upon it.
    I would like to note we have two distinguished panels 
today. The first is a panel of Government witnesses, and the 
second a panel of other distinguished Americans.
    I will reserve opening statements for the Chairman of the 
full Committee, Mr. Conyers, who is delayed, and Mr. Smith, our 
Ranking Member, if he should attend.
    First, I would like to introduce the Honorable Leon 
Sequeira, the Assistant Secretary for Policy at the U.S. 
Department of Labor. Mr. Sequeira was confirmed by the Senate 
to his post with the Labor Department in February of this year 
after having served as Deputy Assistant Secretary for 2 years. 
Mr. Sequeira came to the Department after having served as the 
Legal Counsel to Senator Mitch McConnell of Kentucky and as a 
Counsel to the Senate's Rules Committee. Like Congressman King, 
Mr. Sequeira was once a Bearcat at Northwest Missouri State 
University, and he later earned his law degree from George 
Washington University.
    We are also pleased to have Dr. Patricia Buckley with us, 
the Senior Economic Advisor to the Secretary of the U.S. 
Department of Commerce. Dr. Buckley joined the Commerce 
Department in 1999 after having served as an economist for 10 
years for the Manufacturers Alliance and for 2 years as an 
economist for Congress's Joint Economic Committee. She holds 
her bachelor's degree from Clemson University and her Ph.D. 
from Georgetown University.
    Finally, I would like to welcome Dr. Peter Orszag, the 
Director of the Congressional Budget Office. Dr. Orszag began 
his 4-year term with the CBO on January 18 of this year, after 
having served as the Joseph A. Peckman Senior Fellow and Deputy 
Director of Economic Studies at the Brookings Institution. 
Prior to his work at Brookings, Dr. Orszag served as Special 
Assistant to the President for Economic Policy and the Senior 
Economic Advisor at the National Economic Council. Dr. Orszag 
earned his bachelor's degree from Princeton University and his 
master's and doctorate degrees from the London School of 
Economics as a Marshall Scholar.
    We have distinguished people here.
    Your written testimony will be made part of our official 
record. We do ask that you summarize your written statements in 
about 5 minutes so that we will have an opportunity to ask 
questions. These little machines have lights on them. When the 
yellow light comes on, it means you have got about a minute 
left. And when the red light comes on, it means your 5 minutes 
are surprisingly over.
    So, Mr. Sequeira, if you could begin with your 5 minutes of 
testimony, we would be honored to hear it.

    TESTIMONY OF THE HONORABLE LEON R. SEQUEIRA, ASSISTANT 
         SECRETARY FOR POLICY, U.S. DEPARTMENT OF LABOR

    Mr. Sequeira. Thank you, Madam Chair. Good afternoon, Mr. 
King and Members of the Subcommittee. I appreciate the 
opportunity to testify today about the U.S. economy, our 
workforce needs and the importance of comprehensive immigration 
reform to our nation's continued economic prosperity.
    The U.S. economy is healthy, resilient, and continues to 
grow. America's workers are among the most productive of any 
major industrialized economy, and demand for workers in the 
U.S. continues to be high.
    In March, the economy gained 180,000 jobs, and there are 
now 146 million people currently working in the United States. 
That is a record high. There are now more people working than 
ever before in the country.
    The latest data also show that there are 4.1 million job 
openings in the United States, with new job vacancies opening 
faster than they are being filled.
    And we have an unemployment rate of 4.4 percent, which is 
well below the 5.7 percent average unemployment rate in the 
1990's. These conditions suggest that employers continue to 
face a tight labor market.
    Our economy has prospered and our labor markets have grown 
stronger as the number of immigrants in our labor force has 
increased.
    Over the past 10 years, foreign-born workers increased from 
10.8 percent of the civilian labor force to 15.3 percent. 
America now has 23 million foreign-born persons in the labor 
force helping to fuel the economy's growth.
    Yet during this time, the national unemployment rate has 
declined. It was 5.4 percent 10 years ago, and it has declined 
significantly to 4.6 percent last year and, most recently, last 
month, 4.4 percent.
    Contrary to the assertions of some, the growth of the 
foreign-born workforce has not produced significant adverse 
effects on native-born workers. Unemployment rates for all 
groups have gone down and wages have gone up.
    Over the last decade, as the foreign-born workforce 
increased, average hourly earnings of production and non-
supervisory workers increased 8.7 percent after adjustment for 
inflation.
    And just as my forebearers came to the United States at the 
turn of the last century in search of economic opportunity and 
a better life for their children, immigrants continue to do the 
same today.
    And immigrants are increasingly important to the strength 
of the U.S. economy. The U.S. workforce is aging, and we do not 
have native-born workers entering the workforce at the same 
rate as people are retiring.
    Other industrialized nations in the world face the same 
problem. Continued immigration in the U.S. will allow us to 
maintain a higher ratio of workers to retirees than other major 
economies such as China, Japan, and Germany.
    We also should not overlook the fact that immigrants 
contribute significantly to the innovation and entrepreneurship 
in our economy.
    The challenge of finding qualified workers is likely to be 
much greater in the coming years. Unmet demand for highly 
skilled labor constitutes one of the foremost challenges 
confronting U.S. employers who are competing in a global 
marketplace.
    The Department of Labor, through the Employment and 
Training Administration, has engaged the business community, 
educators and the workforce investment system to develop 
solutions to the workforce challenges facing high-growth 
industries.
    We have targeted education and skills development and 
resources toward helping workers gain the skills they need to 
build successful careers in these growing industries.
    We are transforming the public workforce system to partner 
with higher education to prepare the American workforce for 
these career opportunities.
    And although these training programs are helping to fill 
the gap, the annual demand for workers far outpaces both the 
department's and State workforce agencies' ability to train and 
equip workers.
    Because of domestic workforce shortages, employers often 
seek to hire temporary foreign workers. Under current law, the 
Department of Labor has an important role in a number of 
existing employment-based visa programs.
    The department's role is to ensure that the employment of 
foreign workers does not adversely affect U.S. workers.
    We oversee the labor certification process requiring 
employers to first test the labor market for able, available, 
and willing U.S. workers before they are permitted to attempt 
to hire foreign workers.
    Only if an employer's effort to hire U.S. workers proves 
unsuccessful can they apply to hire foreign workers.
    The department also protects U.S. workers by ensuring the 
wages that will be paid a foreign worker do not adversely 
affect the wages and working conditions of similarly employed 
U.S. workers.
    We take very seriously our responsibility to ensure that 
our workforce, including foreign workers legally admitted under 
a temporary worker program, are fully protected by our nation's 
labor laws.
    These efforts not only help protect foreign workers from 
exploitation but also help ensure that U.S. workers are not 
undercut by unscrupulous employers.
    In conclusion, immigration fuels our economy, enriches our 
society, and enhances our global competitiveness through the 
influx of both high-and low-skilled workers.
    Our current immigration system, however, is in desperate 
need of repair. Comprehensive immigration reform will help 
secure our borders, strengthen our interior enforcement 
efforts, and help meet the demand of labor to increase our 
strong economy.
    The Administration is committed to working with Congress to 
ensure our immigration policies support continued growth of our 
nation's economy while also protecting American workers.
    We look forward to continuing to work with you and your 
colleagues in the Senate on this important endeavor. Thank you 
again for the opportunity to testify.
    [The prepared statement of Mr. Sequeira follows:]
                 Prepared Statement of Leon R. Sequeira

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Lofgren. Thank you very much.
    Dr. Buckley?

   TESTIMONY OF PATRICIA A. BUCKLEY, Ph.D., SENIOR ECONOMIC 
     ADVISOR TO THE SECRETARY, U.S. DEPARTMENT OF COMMERCE

    Ms. Buckley. Thank you, Madam Chair and Members of the 
Committee. It is my pleasure to appear before you today to 
present a brief statistical overview describing our foreign-
born population.
    These data provide support for a very simple conclusion: 
Immigration contributes to our current economic growth and is 
necessary to ensure our future prosperity.
    Because of the largely complementary nature of those drawn 
to work in the United States, we as a nation realize real 
benefits. An important segment of those who come to the United 
States are here to create jobs, not to take jobs.
    The size and wealth of this country continues to attract 
entrepreneurs, and the high rates of entrepreneurship among the 
immigrant population contributes to the dynamism of the U.S. 
economy, fostering both investment and employment.
    However, even those who come to the United States in order 
to find employment create benefits for the existing population. 
And it is on this aspect of the economics of immigration that I 
would like to focus.
    The population distribution of the native-born and the 
foreign-born are distinctly different.
    Ms. Lofgren. The members have these charts in their 
testimony.
    Ms. Buckley. Nearly 70 percent of the foreign-born are 
between the ages of 20 and 54, while less than 50 percent of 
the native-born fall in that category.
    The educational distribution of the native- and the 
foreign-born are also different. And there are distinctions 
between naturalized citizens and non-citizen immigrants.
    While only 12.7 percent of the native-born population does 
not have at least a high school diploma, that proportion is 
much higher for naturalized citizens and non-citizens.
    However, at the other end of the scale, naturalized 
citizens have the highest proportion of those with a bachelor's 
degree and those with a graduate or professional degree.
    In 2006, just less than 15 percent of the population was 
foreign-born. However, because of the demographic differences 
just shown, the foreign-born account for a larger proportion of 
the employed population. And that proportion has been growing 
over time.
    In 1966, 10.6 percent of those employed in the United 
States were foreign-born. By 2006 that proportion had risen to 
15.4 percent.
    The addition of these workers into the workforce has 
allowed the rate of employment to grow about twice as fast as 
it otherwise would have during the period.
    With the foreign-born making up a growing portion of the 
population, concerns have been raised about the degree to which 
foreign-born workers compete with existing workers.
    Some argue that if the two groups of workers can substitute 
for each other, then absent other factors the increase in 
foreign-born workers would drive down wages and reduce job 
opportunities for the native-born.
    However, a look at the geographic and occupational 
distribution sheds some light on this. The distribution of 
foreign-born is extremely geographically concentrated, and this 
is particularly noticeable if you look at the map through the 
lens of looking at it by congressional district.
    On the occupational side of the distribution, here are a 
list of occupations where we have the highest proportion of 
foreign-born workers.
    One thing that is noticeable about these types of jobs is 
they are location-specific. The worker needs to be where the 
work is.
    With many types of jobs, especially in the production of 
tradeable goods, it doesn't really matter where you are. You 
are in direct competition with someone else other places in the 
country creating it.
    But with these types of jobs, the worker needs to be co-
located with the employer.
    There is a large and growing body of literature that 
examines this issue. These data are only indicators of general 
trends but don't show causality or strong economic 
relationships.
    These studies are in general agreement that the high-
skilled workers do not negatively impact the native high-
skilled workers and, on balance, provide a net gain for the 
economy as a whole.
    The question remains, however, about the economic impact of 
immigration on the native-born workers with limited skills.
    The most recent of the studies seemed to be drawing the 
conclusion that while the impact on the overall economy is very 
strong, there is, indeed, a small but significant impact on 
native-born workers with lower skills.
    Even if this analysis is correct, however, and there is a 
negative impact on low-skilled workers, drastically restricting 
immigration would be a poor way to help those workers, since 
the overall impact of immigration is so strongly positive: a 
larger, strong economy, higher overall wages, and lower prices.
    It would be more efficient to look at the root causes and 
improve the situation of those workers adversely impacted by 
improving access to educational and training opportunities.
    Thank you.
    [The prepared statement of Ms. Buckley follows:]
                Prepared Statement of Patrica A. Buckley
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Lofgren. Thank you very much.
    Dr. Orszag?

 TESTIMONY OF PETER R. ORSZAG, Ph.D., DIRECTOR, CONGRESSIONAL 
                         BUDGET OFFICE

    Mr. Orszag. Thank you very much, Madam Chair, Mr. King. Let 
me note that since this is the first time I am appearing before 
the Subcommittee as CBO director, I look forward to working 
with you over the next several years on the various issues that 
you face.
    Ms. Lofgren. So do we.
    Mr. Orszag. Wonderful.
    Since Dr. Buckley covered many of the simple facts about 
the immigrant population in the United States, I am going to 
try to focus in on the question that you raised at the 
beginning, Madam Chair, on the effects of immigrants on native-
born workers and the evidence thereof.
    And I am just going to skip to this chart, which I am not 
going to use quite yet.
    The basic sort of Econ 101 logic that is put forward is 
that an increased supply of foreign-born workers will drive 
down wages for native-born workers, and we do need to keep that 
simple model in mind.
    But there are many modifications or caveats that are 
important, other factors that can mitigate that basic insight.
    So, for example, even at the same level of education, 
immigrant and native-born workers are unlikely to be perfect 
substitutes for each other, whether because of language skills, 
experience or other factors. That mitigates the wage effect on 
native-born workers.
    Secondly, immigrants and native-born workers do not have 
the same education levels, and it is striking.
    So this chart shows you--if you look at workers with 
education of 8th grade or less, only 1 percent of native-born 
workers have that little education.
    Thirty-six percent of workers from Mexico and Central 
America in the United States have that amount of education.
    As a result, 60 percent of workers in the United States 
with an 8th-grade or less education come from Mexico or Central 
America.
    At the other end of the spectrum, among graduate degrees or 
very highly skilled workers, if you look at foreign-born from 
the rest of the world, not from Mexico and Central America, you 
also see a concentration among highly skilled workers from the 
rest of the world where the share of foreign-born workers from 
those other countries actually is somewhat more concentrated in 
that very high end.
    So you have to be thinking about this kind of bimodal 
distribution, and the middle is much thinner among foreign-born 
workers.
    Those differences in education levels are important because 
in many cases an increased supply of less-skilled labor can 
raise the demand for more medium-or high-skilled labor.
    So for example, an increased supply of construction workers 
can create demand for architects, for supervisors at 
construction sites, and all sorts of other, more skilled 
workers. So the second thing is that the education mix is 
different.
    Third, both employers and native-born workers themselves 
can adjust to the presence of foreign-born workers.
    So in the presence of a greater supply of workers, firms 
can have a greater incentive to invest, and that can put upward 
pressure on wages, partially mitigating the sort of simple Econ 
101 effects that we started with.
    In addition, native-born workers can have an incentive, in 
the face of that effect, to obtain more education themselves, 
and that also can mitigate the effect.
    When you put all these things together, it becomes an 
empirical question: What is the overall impact on native-born 
workers from the immigration that we have seen?
    CBO's review of the relevant literature suggests that that 
overall impact is very modest, and that even if you look among 
the most heavily affected segment of the labor market--that is, 
among high school dropouts--the effect is still modest.
    This comes from two major types of studies. The first is 
based on local areas, so you look where there is a higher 
concentration of immigrants relative to a lower concentration 
of immigrants across parts of the United States and examine 
differences in native-born labor market outcomes across those 
different areas.
    That kind of analysis suggest modest effects, and in fact 
the most famous example of this is looking at unexpected flows 
of immigrants, in a study that David Card did--or I believe you 
are going to hear in your second panel about an example in 
Israel where there was an unexpected flow of immigrants, and 
you can then look at the impact on native-born workers. And 
those studies find very small effects.
    There have been other studies mentioned that look at 
national level trends in immigrants over time and look at the 
impact on native workers over time.
    Those have tended to find larger effects, but only because 
they don't control for various different things, including 
incarceration rates for workers, which can affect their labor 
market outcomes, including the imperfect substitutability of 
native-born and foreign-born workers, and including the 
incentive for firms to invest in the face of increased 
immigration.
    So when you adjust for those kinds of things even at the 
national level, you again get quite modest results. And again, 
that is why CBO has concluded that the impact on the wages of 
native-born workers from immigration is modest.
    A final point I want to make is just to highlight something 
else that Dr. Buckley emphasized, which is when you look to the 
future, labor force growth in the United States among native-
born population is expected to slow dramatically because of the 
retirement of the baby boomers, and because of low fertility 
rates among native-born families.
    If we just shut off immigration today, net immigration, 
close the borders, do not allow anyone in or out, if you look 
at the right-hand bar, between 2000 and 2050, the population 
between ages 15-64 would increase by only 10 million people.
    That is clearly a very slow rate of workforce growth, and 
that would have significant effects on macroeconomic activity.
    Thank you very much.
    [The prepared statement of Mr. Orszag follows:]
                 Prepared Statement of Peter R. Orszag
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Lofgren. Thank you very much, Dr. Orszag.
    And thanks to all the panelists.
    We will now begin questioning, 5 minutes per Member, and I 
will begin.
    Dr. Buckley, I read the entire testimony of all the 
witnesses, but I was interested in your statements relative to 
job creation and some of the entrepreneurism, basically, that 
have been brought to us by immigrants.
    And in Mr. Sequeira's testimony, he mentioned several 
individuals--Mr. Khosla, co-founder of Sun Microsystems; Andy 
Grove from Intel; Pierre Omidyar helped co-found eBay; Jerry 
Yang, founder of Yahoo; Sergey Brin, who founded Google--
actually, all these people are from my county.
    But I note that not all of them came as economic 
immigrants. I mean, Jerry Yang grew up in East San Jose. He 
came as a child. Sergey Brin was here, I mean, as a student, 
and certainly Google has made a lot of people rich and created 
a lot of jobs.
    So when you are talking about this entrepreneurship, I 
assume that you are talking about the mix of immigrants coming 
in, not just people that, you know, sort of Soviet-style, we 
put a point system on, but just the whole rush of creativity 
that is sometimes created by an immigrant community. Is that--
--
    Ms. Buckley. I think that is exactly right. The spirit of 
dynamism in the United States is distinctly different than a 
lot of other countries.
    People keep asking what the secret is to economic growth in 
the United States, and one of the answers is always we have 
people here who are willing to take risks.
    There are lots of reasons for it, and a lot has to do with 
the way our financial systems are set up. People aren't 
permanently, for the rest of their lives, ruined if they try to 
start a business and fail. A lot of them live to start another 
one, and another one, until finally they succeed.
    And part of the excitement that you see in this economy, I 
think, stems from just the very fact of our diversity. And this 
is why the whole immigration question going forward is going to 
be so critically important, because not only do these companies 
start those business, but businesses are part of an ecosystem.
    So if I run a research lab and I can't get the workers I 
need to work in that lab, I am not just going to move a small 
facility overseas to hire those workers. I am going to move an 
entire set.
    And companies like to be co-located with their customers 
and suppliers. So the chance of setting off an unfortunate 
chain reaction should not be minimized.
    Ms. Lofgren. If I may, have you studied that? Because 
anecdotally I have run into those situations in my county, 
which is high-tech--it is Silicon Valley--where sometimes you 
have key individuals, and you know, they are just looking for 
who is the smart guy to do something.
    They don't care whether you are Hungarian or Chinese or 
whatever. They want you to become an American. But if they have 
identified somebody and they can't get that person, and it is 
key enough, they will move the whole outfit to a place where 
they can get people.
    And Vancouver is one major example, since it is not that 
far a flight from Silicon Valley.
    Has the Department of Commerce had the resources to study 
that phenomenon?
    Ms. Buckley. We don't have the data that could actually 
indicate that, but in connection with another project that we 
are undertaking on measuring innovation, we have talked to a 
collection of business leaders.
    And it was amazing. In one of the questions we are asking 
them, why do you innovate in this country, and the whole chain 
and the ability to collaborate was very high on the list.
    And I think a study done by IBM of CEOs points to the 
ability to collaborate as a key issue in how a multinational 
corporation chooses to locate its high-tech facilities.
    Ms. Lofgren. Right.
    Mr. Sequeira, you have testified quite eloquently on the 
role, the positive role, that immigrants have played in our 
society. I want to ask you if you have thought about the 
comparison in that positive impact between people who are only 
on a temporary visa and people who are here and actually set 
down stakes and become assimilated.
    Are the results going to be the same?
    Mr. Sequeira. I think both folks who come here permanently, 
that immigrate to the country, certainly make positive impacts, 
as the data shows. But that is not to say people who come here 
temporarily don't make an equally important impact.
    The fact that they aren't permanent immigrants in no way 
diminishes the fact that they are filling jobs for which 
Americans, for whatever reason, have chosen not to take.
    And, of course, temporary workers are not excluded from 
eventually becoming a permanent----
    Ms. Lofgren. Currently not. But one of the phenomena that 
we have seen, again in Silicon Valley, is somebody who comes, 
becomes a participant in an innovation, and then for whatever 
reason, sometimes immigration visa issues, actually has to go 
back--oftentimes, it is not even to their home country--to a 
competitor, and forms a competitive company with us instead of 
becoming an American.
    My time has expired, and I am going to live by that rule.
    Mr. King?
    Mr. King. Thank you, Madam Chair. I appreciate the 
yielding, and I do appreciate the hearing.
    A lot of questions come to mind, and I want to also thank 
you all for your testimony and being here today.
    One thing that does come to mind--and I direct my first 
question to Dr. Orszag. In reading through your written 
testimony, on page two you state that the growth of the wages 
of native-born high school dropouts, at least initially, the 
ultimate impact on wages is likely to be modest.
    And as I listened to your testimony, and I hear different 
oral testimony, the effect was modest, the effect is still 
modest, and the impact on the native workers is modest.
    And so I would ask you if you could clarify that. Is it 
likely to be, or is it? And then could you base your conclusion 
upon something so that I can better understand that?
    Mr. Orszag. Sure. I wouldn't ascribe meaning to ``likely to 
be'' versus ``is.'' I think the evidence suggests that the 
effects based on the immigrant pool that we have in the United 
States to date on the functioning of our labor market are 
modest.
    Mr. King. Okay. So you would make the definitive statement 
rather than likely, use the term likely.
    Mr. Orszag. Yes.
    Mr. King. And I want to also ask you, are you familiar with 
the Heritage Foundation study that was done by Robert Rector 
and released about a month ago that analyzes, not just 
immigrants but without regard to the nationality or lawful 
presence, households headed by high school dropouts and the 
impact on our economy?
    The short version of that is that a typical household 
headed by a high school dropout will pay about $9,000 in taxes, 
including fees on lottery tickets, and they will consume about 
$32,000 in services but have a net loss, annual loss, of 
$22,449 per household headed by a high school dropout.
    It is actually marginally a little bit less if they are 
illegal because they use fewer services. Are you familiar with 
that? And that multiplies out to $1.3 million for every 
household for the lifetime of that household.
    Mr. Orszag. I am familiar with some of his past work. I 
don't believe I have seen that particular study.
    I would say that CBO is going to be in the near future 
releasing a paper on the effects of unauthorized immigrants on 
State and local governments, which is where you would expect 
the effect to be somewhat larger than at the Federal level.
    Mr. King. And I would ask you, since this is the individual 
who I think did the most definitive analysis of the Senate 
version of the immigration bill last year--his numbers hold up 
to this day as far as criticism that I have seen.
    And I would ask you if you would be willing to sit down 
with him for a period of time and go through that study so I 
could have some level of confidence that your office 
understands the rationale behind that and give you, of course, 
an opportunity to either compliment it or criticize it, and at 
least evaluate it from an objective standpoint.
    Mr. Orszag. Absolutely.
    Mr. King. I very much appreciate that, Doctor.
    And then if I would then turn back, then, to Mr. Sequeira, 
as we discussed this, I just had this odd question come to 
mind. And you support the law of supply and demand?
    Mr. Sequeira. Certainly. Everyone does.
    Mr. King. That is kind of like the softball out there. But 
then explain to me how this works, if we can dump in tens of 
millions of people into the labor market, and they have a 
negligible effect on the wages of the people that are doing the 
work.
    How can I reconcile that contradiction that appears to be 
at least a contradiction to me?
    Mr. Sequeira. I guess I didn't understand the question. The 
contradiction that----
    Mr. King. I can restate it, and that is if you believe in 
the law of supply and demand, and you dump in tens of millions 
of unskilled labor into an existing market, how do you 
reconcile that contradiction?
    Mr. Sequeira. I think most people come to that conclusion 
with the assumption that the economy--we are talking about a 
fixed size of the pie. And the economy grows. And there aren't 
a fixed number of jobs available.
    Everyone who comes to America as an immigrant gets a job, 
but that doesn't mean they necessarily displace someone else in 
the marketplace. They may take a job that, in turn, leads to 
the creation of a job or two or three jobs.
    So we are not talking about a fixed pie. It continues to 
grow, the economy, and the jobs.
    Mr. King. And if the pie grows faster than the increase of 
labor, then it would be a negligible effect, but doesn't that 
also diminish the expansion of the opportunities for wages to 
come up?
    If you dump cheap labor into a marketplace, as that market 
grew, if you dump it in fast enough, it would prohibit the 
wages from going up, would it not?
    Mr. Sequeira. I am starting to tread in dangerous water 
sitting with two economists here.
    Mr. King. And I see them leaning forward here, and I guess 
I will say I am more interested in the next question I am about 
to ask than actually the answer. I am sorry. I am watching the 
yellow clock here, because I have one more I wanted to ask, I 
really would.
    Also in your testimony, it says comprehensive immigration 
reform will not only secure our borders and bring illegal 
aliens out of the shadows but also meet the labor demands.
    How does it secure our borders, and how do you get people 
to actually come out of the shadows? Some will come. But what 
about those that are concerned they won't be ratified?
    Mr. Sequeira. I think the biggest incentive to get people 
to come out of the shadows revolves around interior 
enforcement.
    The president said it is a three-part plan. You have to 
secure the borders. You have to increase interior enforcement. 
And you create a workable temporary worker program.
    And with aggressive interior enforcement and a workable 
temporary worker program, people can't essentially work in an 
underground economy. There has to be verification that you know 
the status of an individual before you hire them.
    And if you have no opportunity to work in an underground 
economy, then your choice is to come out of the shadows and 
present yourself to the authorities, or you are going to have 
to return home.
    Mr. King. I just say the ones we want to probably won't. 
But I thank you.
    And I yield back.
    Ms. Lofgren. The gentleman's time is expired.
    I see the economists--maybe Mr. Conyers will ask you to 
answer Mr. King's question.
    So I call on Mr. Conyers, our Chairman, for his 5 minutes 
of questions.
    Mr. Conyers. Could I wait until----
    Ms. Lofgren. You certainly may. I will defer to----
    Mr. Conyers [continuing]. The second panel? I haven't heard 
them, and I wish I had.
    Ms. Lofgren. That is fine.
    We will go to Mr. Gutierrez.
    Mr. Gutierrez. Thank you, Madam Chairwoman.
    First of all, when was the last time we dropped tens of 
millions of people into our economy? To anybody. Tens of 
millions of people into our economy? I can't remember the last 
time. Anybody know the last time we dropped tens of millions of 
people into our economy? Okay.
    How many undocumented workers are there in the United 
States, in the estimate of anyone on the panel?
    Mr. Sequeira. Ten million to 12 million.
    Ms. Buckley. Yes, according to Pew Hispanic Trust, 12----
    Mr. Gutierrez. Okay, so 12 million.
    Ms. Buckley [continuing]. --12.5 million.
    Mr. Gutierrez. And those undocumented workers in our 
country came over a period of how many years?
    Ms. Buckley. They broke out two groups--one, groups that 
have been here I think since before 2000, and the ones more 
recently--so it was over a very long period of time.
    Mr. Gutierrez. Over a very long period of time. Twenty 
years?
    Ms. Buckley. Could be.
    Mr. Gutierrez. Could be. But a very long--so what we know 
is that there is 10 million to 12 million over an extended 
period of time, so there hasn't been any tens of millions of 
people dumped into our economy instantaneously any time in 
recent history.
    I want to go to wages and wages going up. Now, I just want 
to make a comment for the Members of the Committee.
    I find it particularly interesting that people always use 
the issue of wages and that the wages will suffer for American 
workers, especially when the Congress of the United States has 
yet to increase the minimum wage, at least in the last 9 years. 
I particularly find it troublesome from people that are 
concerned about wages of American workers, but we can do 
nothing to impact our economy and to structure our economy for 
the wages of American workers.
    They won't do anything about that, but when they see 
immigrants they say, ``wages of American worker.'' So I just 
would like to ask for a little bit more consistency in terms of 
what we talk about here in the Committee.
    Securing our borders. In order to secure our borders and to 
have a safer society--we have 12 million people--would one of 
the rationales be that we should know who these people are, and 
they should register for the Government, and therefore we would 
have a more secure society? Anyone?
    Mr. Sequeira. I think certainly, yes.
    Mr. Gutierrez. Good. That is what I think.
    And, you know, Madam Chairwoman, it is not all the time 
that I agree with the police. But we have the head of our 
border patrol, the chief of our border patrol, who has come 
before this Committee. And he has said, ``The way you can help 
me, all right, secure our border is to have a new worker 
program to allow workers to come to the United States.'' That 
is the head of our border patrol, the police.
    I always find it interesting when Members of Congress and 
especially politicians who are always the friends of the police 
all of a sudden tend not to listen to the police when the 
police say something that doesn't fit into their particular 
scheme of things.
    And lastly, I want to say the ones we don't want won't come 
out. Well, yes. Let's start with the ones that we can. That is 
who I want to come out. So then we can distinguish between them 
and enforce our laws on a smaller population of people because 
there is 12 million people that are legalized that our 
Government knows.
    And lastly, as I don't want to take up the 5 minutes, I 
would like to say that I take a little bit of umbrage and this 
is a little personal. You know, my dad came with an 8th-grade 
education, my mom came with a 6th-grade education to this 
country, and their son is now a Member of Congress, and my 
sister is a school teacher.
    They didn't understand the language. They only spoke 
Spanish. We grew up in a bilingual household. And obviously 
through some feat of magic, I learned English, since there were 
no English-only laws operating in this country as I was raised.
    And indeed, all of my friends' parents--we always found it 
interesting that our parents spoke to us, as most immigrants, 
speaking the language of the country that they come from.
    And I want to make it clear, my parents are from Puerto 
Rico, so they didn't have the immigration issue and the 
technicality of becoming citizens.
    But in every other respect, they were poor, and they fled 
Puerto Rico during Operation Bootstrap because a whole 
community--that is why our census data will tell you there are 
more people who claim to be Puerto Ricans living in the United 
States than on the island of Puerto Rico.
    In other words, they came here for the same reasons and 
under the same conditions and with the same socioeconomic 
conditions that low-skilled, low-wage workers come here to this 
country.
    And yet this Congress is permeated with the sons and 
daughters of those very immigrants. So I think we should take 
that a little bit into account. I know it was a little 
personal, but I thought I should bring that relevancy to this 
hearing.
    Thank you very much to the panel.
    Ms. Lofgren. Ms. Sanchez is recognized for 5 minutes.
    Ms. Sanchez. Thank you, Madam Chairwoman.
    I want to go back to Mr. King's question and allow Mr. 
Orszag an opportunity to address it.
    If I am not mistaken, Madam Chair, the question was if 
bringing more workers into the United States, immigrant workers 
into the United States, taking into account the laws of supply 
and demand, how does that not drive down wages for native-born 
workers or take jobs away from native-born workers?
    Could you please explain that apparent contradiction?
    Mr. Orszag. Sure. The law of supply and demand doesn't tell 
you anything about what the size of an impact is. It suggests 
that if you have an increased supply of something, you normally 
drive down the price or the wage of that something. But you 
can't tell from theory how big that effect is.
    And in my oral remarks, I tried to walk through some of the 
reasons that would suggest that there might be more modest 
effects than you would sort of think ahead of time. And so, it 
ultimately becomes an empirical question, which is, how big is 
it?
    When you look at the empirical evidence, the most credible 
evidence suggests that the effects are very small--and I will 
avoid all the weasel words, not likely--based on the available 
evidence are small.
    Ms. Sanchez. Thank you. I appreciate your clarification of 
that.
    Dr. Buckley, I understand from your testimony that 
immigrants have a substantially higher rate of entrepreneurship 
than native-born Americans, and that the high rates of 
entrepreneurship among the immigrant population contribute to 
the dynamism of the economy, fostering both investment and 
employment.
    You described them, I think, as risk-takers. And I would 
tend to agree, figuring that people who are willing to leave 
their families, their language, their culture behind to come to 
a country and make or break it are definitely taking big risks.
    When you are talking about immigrants having sort of a 
higher rate of entrepreneurship, I assume that you are not 
distinguishing between the different types of immigrants, 
whether it is family-based immigrants, employment-based or 
humanitarian-based immigrants. Am I correct in that assumption?
    Ms. Buckley. That is correct. And I would like to clarify 
that that is a study done by the Kauffman Foundation. That was 
not a study done by the Department of Commerce.
    If I could add one more thing to Dr. Orszag's explanation, 
that is that when the supply curve shifts out, there is usually 
a shift out in the demand curve, because when people come here, 
they rent houses, they buy groceries, they buy cars.
    So it is not only a shift in one of the curves. There is a 
shift in the other curve that occurs at the same time, which is 
why, absent doing fairly sophisticated econometric studies, you 
are not going to be able to distinguish between which one of 
those effects dominates.
    Ms. Sanchez. Thank you. You also stated that immigration 
has been a key contributor to our past growth. In your opinion, 
do you think we could have achieved the levels of economic 
growth the last couple of years without the growth in the 
immigrant labor force?
    Ms. Buckley. Absolutely not. When you have half of your 
labor force growth coming from immigration, it is not logical 
to think that economic growth would have been the same without 
them.
    Disentangling the exact impact would be very difficult to 
do because of the distributional issues. But if you just take a 
very simplified example that a combination of growth in labor 
force hours--that growth rate plus the growth rate of 
productivity gives you the potential growth rate of GDP.
    If labor force is growing by 0.8 percent a year and it only 
grew by 0.4, adding it to the same productivity growth rates--I 
don't know how that would change--you would be reducing the 
growth in the economy by 0.4 percent per year.
    But again, that is really rough, and without doing a lot of 
work pulling that number out would be very difficult.
    Ms. Sanchez. But is it fair to just summarize and say that 
part of the economic growth that we have experienced has been 
due to immigration?
    Ms. Buckley. Yes.
    Ms. Sanchez. Thank you.
    Mr. Sequeira, in pressing a proposal to reform our 
immigration system, the Administration seems to be focused on 
very large expansions of temporary worker programs that don't 
seem to provide those workers with a way to become permanent 
residents.
    Isn't it true that one of the significant benefits of 
immigration in America is the fact that immigrants help, often 
times, revitalize troubled communities or blighted communities?
    They start new businesses that bring in important economic 
activities to neighborhoods and ultimate then integrate into 
the American community to become part of the American dream.
    Mr. Sequeira. I think, yes, that is certainly true for 
immigrants.
    Ms. Sanchez. Okay. If we rely too heavily, though, on using 
temporary workers who have very little chance of becoming 
permanent members of our society, aren't we going to then lose 
those positive benefits that immigration brings?
    Mr. Sequeira. I think that is one conclusion that one could 
draw, but that at least seems to assume that there won't 
otherwise be other immigration going on. And I think that, 
certainly, the robust immigration we have had, legal 
immigration, over the past several years expects to continue, 
and maybe in some cases even increase.
    And a temporary worker program would be separate and apart 
from that.
    Ms. Sanchez. Madam Chair, I know my time has expired, but 
if I could just follow up with one last question directly 
related to this, and beg an additional----
    Ms. Lofgren. Without objection, the gentlelady is 
recognized for an additional minute.
    Ms. Sanchez. Thank you.
    My point being that workers who are simply coming here on 
some kind of short-term contract are going to have less 
incentive, would you think, to invest in our communities, to 
maybe buy a home, or build a business, or to learn English if 
at the end of the day they are not going to be able to stay and 
they are going to have to go home?
    Mr. Orszag. I think that may be true for some, but also it 
is important to remember that we currently have temporary 
worker programs, and tens of thousands of temporary workers 
come into the country every year expressly just to work for 
short periods of time, likely to earn money to return to their 
home country, in agriculture, at the end of the growing season.
    And they prefer to do that, because of the economic 
opportunities here. They come here and earn money and return to 
their home country where they live and where their family 
remains.
    Ms. Lofgren. The gentlelady's time has expired.
    Ms. Sanchez. Thank you.
    Ms. Lofgren. Let me turn to Mr. Davis for his 5 minutes.
    Mr. Davis. Thank you, Madam Chairwoman. And because some of 
us literally have planes to catch, I won't be able to be here 
for the second panel, so I will make my comments a little bit 
more global than they normally would have been.
    I want to address this issue of competition for low-wage 
jobs. And I want to put it in the context of my region of the 
country, the American South, and our experience in the first 60 
years of the 20th century.
    At the end of the 19th century, there was a fair amount of 
cohesion between low-income Whites and Black descendants of 
slaves in the American South. They felt they had a lot in 
common. They were both poor. They felt they had a lot in 
common. They were both struggling to hold their family units 
together against all kinds of economic pressures. And they had 
a lot in common because they had significant shared histories 
of exclusion from the dominant social structures in their 
States.
    And they were voting for the same candidates. The people 
they were voting for were winning elections. And Southern 
politics was becoming very progressive. And not everyone liked 
that. And some of the people with power who didn't like the 
progressive politics figured, ``Well, how do we move history in 
a different direction? Well, maybe one way to do it is to start 
to break the cohesion down between low-income Whites and Blacks 
and get them mad at each other.''
    So this was the strategy that was employed in the South for 
the first 60 years of the 20th century: Go to low-wage Whites 
and say, ``If you give political freedom, status and power to 
Blacks, they are going to crowd you. They are going to push 
your place at the pedestal, and there won't be as much to go 
around. After all, we are fairly poor in the South, and if more 
people can enter the circle of power, there will be more to go 
around for everybody.''
    And it was an argument that had a lot of force for the 
first 60 years, and then all of a sudden we start electing New 
South governors, and we got more progressive, and people 
started to think that kind of politics didn't work very well.
    I mention all of that not just to give you a history 
lesson, but because I see echoes of it in what is happening in 
our politics today, frankly.
    And I am distressed when I see people on either the extreme 
left or the extreme right, the Black community or the White 
community, Democrats or Republicans, go to African-Americans or 
low-income Whites and tell them they ought to be distressed 
about low-income migrants coming here and crowding out their 
space in the labor force.
    You have all done a very good job making an economic 
argument that, first of all, the premise is wrong. But there is 
a broader political context here. This is destabilizing and 
dangerous in a community that cares to be cohesive. These kinds 
of arguments are destabilizing and dangerous in a community 
that cares to be cohesive.
    And I want to follow up on Mr. Gutierrez's point. I like 
this idea of an emerging caucus around the interests of low-
wage folks.
    But if the caucus were to get together and to form a 
charter, I would suspect the following issues should be at the 
top of the agenda--minimum wage, because we haven't raised it 
in 9 years, and in real purchasing dollars it is the equivalent 
of $3.50 today. That ought to be number one.
    Number two ought to be expanding trade adjustment 
assistance so that we have a comprehensive program and not a 
narrow program for people who have been unfairly hurt by 
globalization.
    Number three ought to be more spending on education in 
communities that can barely fund their own school districts.
    Number four ought to be stronger health care, because we 
know the impact between health care and economic productivity.
    And if I had time, I could give you another 15 or 20. And 
if I had a lot of time, I might get to number 21, which was, 
frankly, dealing with these kinds of issues.
    So I would simply ask the panel to respond to this 
particular argument in the context of the minority community. 
Pick any city, pick Chicago, pick Atlanta, pick any large urban 
city with a minority population. Is there any empirical 
evidence whatsoever that immigration has contributed to 
unemployment among poor Black folks?
    And as we used to say in the courtroom, let the record 
reflect that all three witnesses shook their heads no.
    But who wants to comment?
    Mr. Orszag. I would just comment that I would agree with 
the tenor of your remarks, that while immigration may have had 
some effect, there are other forces that are having a much 
larger effect on low-income native-born American workers, 
including technological changes.
    And if you look at the combination of sluggish real income 
growth among lower-income households, and very high levels of 
earnings volatility, that combination, I think, is something 
that policy makers are rightly concerned about.
    Mr. Davis. And I will follow up with this point, if I can 
ask the Chair's indulgence for an additional 30 seconds.
    If you look at the American South, at the heavy 
concentrations of low-wage individuals, it is in the 
Mississippi Delta, the Alabama Black belt, and there is 
virtually no cognizable illegal immigration in those 
communities. It is point with a lot of zeroes behind it.
    So again, facts are very, very helpful if we will only take 
the time to look at them.
    Thank you, Madam Chair.
    Ms. Lofgren. The gentleman's time has expired. Thank you 
very much.
    And we would now recognize the gentlelady from Texas for 5 
minutes, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you, Madam Chair.
    And again, let me offer my appreciation for the steady 
building blocks that we have worked to construct here as we 
move, probably somewhat swiftly, in the next couple of weeks 
toward confronting this important question.
    Let me also thank the Ranking Member and the full Committee 
Chair. I think it is appropriate to acknowledge that the Chair 
has had an enormous civil rights victory today, Mr. Conyers, so 
this is a good day for us.
    Let me acknowledge my colleagues, because each and every 
one has had a series of pointed questions, and apologize to the 
witnesses. We were in another meeting dealing with that other 
issue called the Iraq war.
    But I wanted to follow up on the line of questioning that I 
know some colleagues have already offered, but--Mr. Davis.
    I have sat in this chair on the Immigration Subcommittee 
for, I think, calculating, about 6 years and faced a high 
degree of frustration that we were not moving. We were 
certainly listening to a lot of testimony when we had hearings 
on the H-1B visas and the capping.
    And out of that, I listened to a wide array of opinions and 
also perceptions. And I think it is important, because you were 
so definitive in your response to Mr. Davis's question about 
whether there is an impact economically on, in a certain 
instance, low-income or African-Americans.
    But there is perception. So I have heard testimony about 
engineers who have said that we have not been able to be hired 
in some of the technological fields, the fields of software 
writing, if you will, because of the color of our skin. That is 
an important question to answer.
    And so in listening to that for 6 years, we worked to 
construct legislation that--I hope my colleagues will offer me 
the opportunity to be a witness in this Committee, because it 
does have a lot of interested parties. And that is around the 
question of being able to have a dual focus when we move 
forward on immigration reform--develop stakeholders in America 
who otherwise would not be.
    Beyond telling Americans that, you know what, you are 
really not impacted by the influx of migrant workers--I believe 
they are not. I believe they are a crucial part of the economy.
    And there is something to say that visas create work. H-1B 
visa-type visa holders may create work. But I think in creating 
stakeholders, you have got to assess rural areas that are 
underemployed or unemployed in high numbers, inner-city areas. 
You have got to have them become stakeholders.
    Some way we have got to have the dual process of a worker 
program--I don't like temporary. I think people are here to 
work. And I question the Administration's definition of such--
but to have a dual process and find the opportunity for a 
jurisdictional nexus to have job training, job recruitment and 
job retention, so you can answer the question of people who 
will put full-page ads to suggest something is being taken 
away.
    And I would also say that I don't think we can be so finite 
and definitive, because each area is different. Somebody will 
come here and testify and say, ``I was employed, and someone 
else came and took the job because they were bilingual,'' or 
construction sites, large numbers of Hispanics and not African-
Americans.
    So my question is let's deal with the issue of perception. 
Would you concede that many Americans, Anglo, African-Americans 
and others, might think new immigrants might be detrimental to 
them?
    And do we not need to create some focus so that Americans 
can be stakeholders by saying alongside of comprehensive 
immigration reform, we have got a package of job training? It 
might be a nexus there. It might be through some of the revenue 
that comes out.
    But you create this hand-in-hand relationship: ``I am going 
to go along because it is good for us. They are working, we are 
working.'' We have got to be able to deal with perception, 
because a lot of our votes on the floor are going to be lost in 
perception.
    Would you care to answer that one question?
    Mr. Sequeira. Yes. I think that is the case. And as you 
will recall, a few years ago Congress did just that with the 
H1B program. And part of those fees do come to the Department 
of Labor and are----
    Ms. Jackson Lee. And we have got to make that better. It 
was not a really effective program. But go ahead.
    Mr. Sequeira. Yes, and that type of program, I think, 
works, and it certainly generates a lot of money that is a 
defined, dedicated revenue stream that can be used for exactly 
those type of products.
    Ms. Jackson Lee. Thank you.
    Dr. Buckley?
    Ms. Buckley. I agree with you that the perception is there. 
I am not sure exactly what needs to be done about it. I am 
sorry, that is out of my area.
    Ms. Jackson Lee. But at least you say the perception--may I 
get Dr. Orszag very quickly?
    Mr. Orszag. Sure. And I think you probably have more 
information about perceptions than I do, but based on my 
informal perception of perceptions, I think that perception is 
there.
    Ms. Lofgren. And on that note, the gentlelady's time is 
expired.
    Ms. Jackson Lee. So we need to work on it. Thank you.
    Ms. Lofgren. I want to thank the panelists for being here 
today. Your testimony has been very helpful, and your written 
testimony is really spectacular. We do appreciate it.
    Without objection, the Members of the Subcommittee will 
have 5 legislative days to submit questions to you, which we 
will forward and ask, if you can, that you answer them as 
promptly as possible so they can be made part of the record.
    We will now hear from our second panel of distinguished 
witnesses.
    I am pleased, first, to introduce Dr. Gerald Jaynes, the 
Director of Graduate Studies in African-American Studies and 
professor of African-American Studies and Economics at Yale 
University. Professor Jaynes has taught at Yale since 1977, 
just 1 year after having received his Ph.D. from the University 
of Illinois. In addition to his renowned body of scholarship, 
Professor Jaynes served as Study Director for the Committee on 
the Status of Black Americans for the National Research Council 
here in Washington and head of the research project, 
``Immigration, Blacks, and Race Relations'' sponsored by the 
Mellon Foundation.
    We are also pleased to have Dr. Rachel Friedberg with us, a 
senior lecturer in economics at Brown University. Dr. Friedberg 
has taught at Brown since 1992. In addition to her work at 
Brown, she also serves as a faculty research fellow at the 
National Bureau of Economic Research, a fellow of the Stanford 
University Center for the Study of Poverty and Inequality, and 
an external fellow of the Center for Research and Analysis of 
Migration. Dr. Friedberg received her bachelor's degree from 
the University of Illinois and her Ph.D. in economics at the 
Massachusetts Institute of Technology.
    Next, I would like to extend a warm welcome to Wade 
Henderson, the president and CEO of the Leadership Conference 
on Civil Rights. Prior to his post in the Leadership 
Conference, Mr. Henderson served as the Washington Bureau 
Director of National Association for the Advancement of Colored 
People and the Associate Drector of the national office of the 
American Civil Liberties Union. Mr. Henderson also served as 
Counselor to LCCR's education fund and the Joseph L. Rauh Jr. 
Professor of Public Interest Law at the David A. Clarke School 
of Law at the University of the District of Columbia. Mr. 
Henderson holds his degrees from Howard University and the 
Rutgers University School of Law.
    And I will just say that I am so personally honored to be 
in the presence of Mr. Henderson. It is an overwhelming honor 
to have someone of your reputation appear before us as a 
witness, and it is a personal thrill to me.
    Finally, I would like to welcome our minority witness, Dr. 
Vernon Briggs, Jr., Emeritus Professor of Industrial and Labor 
Relations at Cornell University. A prolific scholar, Professor 
Briggs has additionally taught courses at Michigan State 
University, Harvard's John F. Kennedy School of Government, and 
the University of Texas at Austin. He has served as an advisor 
to a host of Federal agencies, among them: the Department of 
Labor; the Department of Health, Education and Welfare; and the 
U.S. Civil Rights Commission. He has served as a board member 
for the Center for Immigration Studies since 1987. He earned 
his bachelor's degree from the University of Maryland and his 
master's and doctorate degrees from Michigan State University.
    Before we invite each of the witnesses to give their 
testimony, I noted at the outset of our hearing that we would 
reserve time for the Chairman of the Committee to make his 
opening statement. And as Mr. Conyers has joined us, I would 
invite him now to make his opening statement.
    Mr. Conyers. Thank you, Madam Chairman.
    In view of the fact that this second panel has been waiting 
so long and I want to hear them so much, I ask unanimous 
consent to put my opening statement in the record, reading this 
one quotation from Frederick Douglass.
    He said, ``We should welcome to our ample continent all 
nations, kindred tongues, and peoples. And as fast as they 
learn our language and comprehend the duties of citizenship, we 
should incorporate them into the American body politic. The 
outspread wings of the American eagle are broad enough to 
shelter all who are likely to come.''
    And I would ask that that be put into the record, in 
addition to his speech from which that is drawn.
    Ms. Lofgren. Without objection, that will be done.
    Mr. Conyers. Thank you.
    [The prepared statement of Mr. Conyers follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary
    There is a concern that immigrants, both legal and undocumented, 
have undermined wages and working conditions for U.S. workers, 
especially in the low-wage sector. These are real concerns, and we must 
take them seriously in crafting a realistic immigration policy.
    But these concerns can also be twisted and misused. I am very 
concerned that those who do not want immigration reform to succeed are 
trying to split minority communities and coalitions through the use of 
proxies and fully-funded but false grassroots organizations. I am 
heartened to see that the Leadership Conference on Civil Rights and 
other groups are standing for unity and realistic immigration reform.
    Nevertheless, immigration does pose some important questions. I am 
interested in hearing the panelists on several aspects of this issue:

        First, how can we harness the energy of these new immigrant 
        communities while also ensuring opportunity for everyone, 
        especially low-wage workers?

        Second, how can we ensure that immigration programs don't 
        destabilize poor urban and rural communities that have fought 
        so hard just to get back on their feet?

        Finally, how can we establish safeguards to help American 
        workers while resisting efforts to split the minority 
        communities apart on this issue?

    On that note, I would like to remind everyone of the words of the 
great Frederick Douglass. Many may not recall that after the Civil War, 
rather than resting from his struggles against slavery and on behalf of 
the African-American community, Douglass turned his attention to 
immigration in a speech entitled ``Our Composite Nationality.''
    For just as we are discussing today, Douglass recognized that 
concerns about American jobs could be used to drive wedges among ethnic 
communities. He was concerned that prevailing sentiment would reduce 
immigrants to mere guestworkers who would be shut off from society and 
exploited by bosses. And he was especially concerned that such 
treatment of the immigrants would be used by the powerful to undercut 
the gains of Emancipation, split minority communities, and create a new 
slave class.
    Frederick Douglass did not blame the immigrants themselves for 
this. He did not see them as a threat to the African-American community 
for which he had worked so hard. His time in slavery made him 
compassionate to the suffering of others, not hardened to their plight.
    Douglass rejected those who claimed that immigrants would hurt 
America. He noted that they were the same ``gloomy prophets'' who had 
previously held that slaves had no capacity to be free. Instead, he 
spoke with pride of an America capable of accepting all who sought 
shelter in this country:

        ``We should welcome to our ample continent all nations, 
        kindreds, tongues and peoples; and as fast as they learn our 
        language and comprehend the duties of citizenship, we should 
        incorporate them into the American body politic. The outspread 
        wings of the American eagle are broad enough to shelter all who 
        are likely to come.'' \1\
---------------------------------------------------------------------------
    \1\ Frederick Douglass, ``Composite Nationality'' (1867). Douglass 
Papers, Library of Congress, Box 22, Folder 18.

    I would ask that Frederick Douglass' landmark speech be made part 
of the record of this hearing in its entirety, because what he argued 
for almost 150 years ago remains true today. Through a controlled, 
orderly, and fair immigration system, we have a chance to ensure that 
our communities are not divided. We have a chance to ensure that, as 
---------------------------------------------------------------------------
Douglass suggested,

        ``all here [shall] bow to the same law, speak the same 
        language, support the same Government, enjoy the same liberty, 
        vibrate with the same national enthusiasm, and seek the same 
        national ends.''

    Ms. Lofgren. Thank you, Mr. Conyers.
    As you know, we have a little machine here. Your written 
testimonies will become part of the permanent record of this 
hearing. We would ask that you try and summarize your written 
testimony in about 5 minutes, and when the yellow light goes in 
it means you have got about a minute left.
    So if we could start here with Dr. Jaynes, if you would 
begin, we would be honored to hear you.

 TESTIMONY OF GERALD D. JAYNES, Ph.D., PROFESSOR OF ECONOMICS 
         AND AFRICAN-AMERICAN STUDIES, YALE UNIVERSITY

    Mr. Jaynes. Thank you, Madam Chairwoman and Members of the 
Committee.
    Well, first, as a veteran Econ 101 lecturer, I feel 
impelled to add a small point of clarification to the last 
panel discussion. That is that, strictly speaking, the law of 
supply and demand can be stated succinctly in the following 
way: that an increase in the supply of labor will decrease 
wages, holding all other relevant variables constant.
    Now, all those other relevant variables, of course, haven't 
been held constant. And that is what leads to the complications 
involved in attempting to estimate what the effects on native-
born workers have been of the immigration.
    The majority of the--much more than simply the majority--
the great preponderance of the methodologically sound studies 
have found that these effects are negligible at worst, and some 
have actually found that they are positive.
    In general, studies have shown that the overall net effects 
of immigration on the United States as a whole have been a 
positive one. That is, immigrants produce more than they 
consume in terms of public services, which is the appropriate 
criterion to use when you are looking at this from the point of 
view of the United States as a whole.
    Now, from the point of view of an individual community, you 
might be concerned about whether they are paying taxes and 
exceeding the services you are paying, but that would be for 
the community as an entity, as a part of the whole.
    Now, there are in excess of 150 million workers in the U.S. 
labor force. So we can conclude that immigration has been a 
positive benefit overall and still understand that there can be 
winners and losers; that is, that there can be some communities 
who may have suffered negative losses, and there can be some 
groups of workers who suffered negative losses.
    And then as a consequence, we can find all kinds of 
examples of groups of workers or individuals or communities who 
have suffered damages.
    That is why academic economists and policy analysts do 
statistical studies, so that we won't be simply concerned with 
the anecdotal story that might tell us something about a 
particular case but doesn't give us good understanding of what 
is going on with the nation as a whole.
    The concept that is used to justify using cost-benefit 
analysis to talk about whether something is overall effective 
than positive or negative for the nation, say, is called by 
economists the Hicks compensation principle.
    And it can be succinctly summarized as saying the 
following. If the net benefit is positive, then the sum gains 
of all the winners is sufficient that they could compensate the 
sum gains of all the losers and still have something left over. 
Therefore, theoretically, everyone could gain.
    In practice, however, the compensation is never forthcoming 
to the losers. As a consequence, the losers' voices are often 
shrill and standing up loudly to be heard.
    One aspect of the debate over our immigration policy which 
I think is somewhat missing is that aspect which discusses how 
do we compensate those losers.
    Yes, those same best studies find that the most 
disadvantaged, least educated workers in the workforce are 
modestly hurt in the labor market in terms of employment in 
some places and their overall wage packages.
    So a just democratic society such as ours should place into 
a debate over immigration reform the idea that there would be a 
discussion as to how do we compensate those workers--not 
directly, of course, by sending them checks in the mail, but 
how do we put forth policies which will allow them to obtain 
training, education, possibly relocation?
    How do we put that issue into the overall debate?
    Secondly and lastly, with respect to this idea of 
compensation and the fact that there are gainers and losers, 
although the vast majority of we Americans in the economy as a 
whole gain from immigration, is the idea that there will also 
be some pockets of labor markets where immigration has a very 
detrimental effect.
    There are some industries--for example, the meat packing, 
the poultry industry--where immigration has, indeed, 
deteriorated the conditions for workers to an extent that I 
would call it a national disgrace.
    But one of the major reasons why that occurs is simply 
because the undocumented workers who now dominate the labor 
forces in those industries are being exploited by the employers 
themselves.
    And if we allow the immigrant workers, documented or 
undocumented, to be exploited we do, indeed, ensure that some 
native-born workers are going to be exploited as well.
    So we need to also be talking about the fact that any 
changes--temporary workers, guest workers, whatever we might 
want to call them, are going to have to have important 
safeguards which attempt to protect the integrity of our low-
wage labor market for all workers, native-born, immigrants 
alike.
    And that will require that we address issues such as 
minimum wage laws, granting protections to immigrant workers, 
and one of those special protections would be giving them the 
mobility to change employers, which is not always the case 
under temporary work visas, for example.
    And we must give them a path to citizenship so that they 
can enjoy the prospect of being full beneficiaries of this 
great country. Thank you.
    [The prepared statement of Mr. Jaynes follows:]
                 Prepared Statement of Gerald D. Janes

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Lofgren. Thank you very much, Dr. Jaynes.
    Dr. Friedberg?

           TESTIMONY OF RACHEL M. FRIEDBERG, Ph.D., 
         SENIOR LECTURER IN ECONOMICS, BROWN UNIVERSITY

    Ms. Friedberg. Thank you, Chairwoman Lofgren, Chairman 
Conyers, Ranking Member King and Members of the Subcommittee. 
Thank you for the opportunity to appear before you today.
    When we think about the impact of immigration on American 
workers, there are two principal dimensions to consider, jobs 
and wages, or what an economist would call quantities and 
prices.
    In my testimony, I will summarize what economists have 
learned about both. And let me begin with the bottom line. The 
academic literature has found that immigration does not have a 
negative effect on the employment of native-born workers.
    There is some debate about the effect on wages, but most 
studies have found the effect to be small, ranging from small 
negative to small positive.
    Now, in general, the field of economics has two things to 
offer, theory and evidence.
    First, theory. Since it seems that principles of economics 
always bears repeating, when the supply of something goes up, 
its price will fall, and so will the price of things that are 
close substitutes.
    But on the other hand, there will be an increase in the 
price of things that are used in combination with it, what we 
call complements.
    So for example, if the supply of lettuce pickers in the 
United States increase through immigration, theory predicts 
that the wages of lettuce pickers will fall, and so will the 
wages of workers with similar skills.
    But there will be an increase in the earnings of truck 
drivers, restaurant workers, supermarket stockers and all of 
the people who work together with lettuce pickers in getting 
lettuce to our dinner tables.
    Theory predicts the same pattern for employment. 
Immigration will make it harder for native-born lettuce pickers 
and those with similar skills to find work, but it will also 
create more jobs for supermarket and restaurant workers and so 
on.
    Finally, because immigrants not only work but, like 
everyone else, also spend money, the increased demand for goods 
and services will create jobs and raise wages throughout the 
economy.
    Now, economic theory tells us about the direction of these 
three effects, negative effects on substitutes, positive 
effects on complements, and then what we call the scale effect, 
the positive effect overall.
    But theory alone can't tell us anything about the 
magnitude. For that, we need data. And we need to directly 
observe cases of immigration and measure the changes that it 
brought about.
    It is challenging to figure out how to do this right. One 
approach that has been used is to compare the wages and 
unemployment rates of people in cities with more versus fewer 
immigrants.
    One issue here with this approach is that if we see cities 
with a lot of immigrants booming, we don't know if the 
immigrants caused the economic boom or if it was the boom that 
attracted immigrants there in the first place.
    Careful studies that account for this issue find no impact 
of immigration on the employment of the native-born and only a 
small impact on wages. The estimates are that roughly a 10 
percent increase in immigration is found to lower wages by, at 
most, 1 percent.
    A second approach does something similar, but rather than 
comparing across cities--say, Los Angeles versus Cleveland--it 
divides the national workforce into skill groups--say, 
comparing high school dropouts to college graduates--and asks 
have the native-born workers who are most similar to immigrants 
in terms of their education and skills--have those natives done 
worse than others.
    These studies find somewhat larger effects on wages, with a 
10 percent increase in immigration lowering native wages by 
about 3 percent.
    A final approach analyzes cases in which history has given 
us something close to a lab experiment, cases in which a large 
number of people left one country for another, driven by forces 
other than the current state of the economy in their 
destination.
    One famous example is the 1980 Mariel boat lift, when about 
125,000 people left Cuba for Miami. The exodus occurred because 
people were suddenly allowed to leave Cuba, and Miami was the 
closest destination.
    Following the boat lift, did natives in Miami do worse 
compared to natives in Houston or Los Angeles, what we can 
think of as the control group in this experiment?
    The answer is no. Natives in Miami did not, in fact, have 
higher unemployment or slower wage growth than similar natives 
in other cities.
    These findings have been supported by studies of other 
natural experiments from different countries and time periods, 
including France in the 1960's, Portugal in the 1970's, and my 
own work on the mass migration of Russians to Israel in the 
1990's.
    None of these studies finds a significant negative effect 
of immigration on native employment or wages.
    So what is the bottom line of all of this labor economics 
research? There is no evidence of a negative effect of 
immigration on native employment. And while there is not a 
clear consensus about wages, most studies point to small 
effects.
    Now, I have discussed Americans as workers, but that is not 
all we are. We are also consumers, employers and taxpayers. How 
does immigration affect us in these roles?
    Well, as consumers, we benefit from the lower prices of 
goods and services that result from immigrant labor.
    As employers--and in fact, as anyone with money in the 
bank--we gain from the higher return to capital that results 
from an increase in the size of the labor force. And as 
employers, we also gain from the increased demand for our 
products.
    Finally, as taxpayers, on the one hand, immigrants use 
Government-funded services like schools and hospital emergency 
rooms, and legal immigrants also have some limited access to 
means-tested public programs.
    On the other hand, immigrants pay taxes: payroll tax, 
income tax, sales, property, and so on.
    How does the extra spending compare to the extra revenue? 
Some groups have immigrants clearly impose a fiscal burden on 
the cities and States where they live. But at the Federal 
level, the foreign-born are a net fiscal benefit.
    Furthermore, estimates of the long-run impact of 
immigration on the overall fiscal balance suggest a positive 
effect as the children of immigrants who cost money today begin 
to work and pay taxes.
    [The prepared statement of Ms. Friedberg follows:]
               Prepared Statement of Rachel M. Friedberg
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Lofgren. Thank you, Dr. Friedberg.
    Mr. Henderson?

  TESTIMONY OF WADE HENDERSON, PRESIDENT AND CEO, LEADERSHIP 
                   CONFERENCE ON CIVIL RIGHTS

    Mr. Henderson. Thank you, Madam Chair, Ranking Member King, 
Members of the Subcommittee.
    I am Wade Henderson, president of the Leadership Conference 
on Civil Rights. The Leadership Conference is the nation's 
oldest, largest and most diverse civil and human rights 
coalition, with almost 200 national organizations working to 
build an America as good as its ideals.
    I want to thank you for the opportunity to address what for 
many of us in the civil rights community consider one of the 
preeminent civil and human rights issues of the 21st century.
    If I could ask your indulgence for just a minute, I do want 
to congratulate, however, Chairman Conyers for a significant 
civil rights victory today in the passage of the Local Law 
Enforcement Hate Crimes Prevention Act.
    Congratulations. It is certainly a great accomplishment. So 
thank you.
    I would like to start this discussion with a few general 
observations on the subject at hand.
    First, the Leadership Conference agrees that our nation's 
immigration system is badly broken. It fails to keep up with 
economic realities. It does not keep track of who is here. And 
it does not give people sufficient incentive to play by the 
rules.
    Our nation clearly needs sweeping changes to our 
immigration policies and procedures, and it needs them soon.
    We also agree that among these changes, we also have to 
include more effective, but also more realistic and more 
humane, immigration enforcement. It is simply unrealistic to 
stretch fences across our borders. And we can't leave 
enforcement to groups like the Minutemen.
    We can take more sensible measures like hiring more border 
patrol agents, making better uses of technology and working 
closely with Mexico against human and drug trafficking.
    Third, the Leadership Conference strongly supports giving 
roughly 12 million undocumented immigrants in our country a way 
to come out of the shadows and to legalize their status.
    The fight for justice, fairness and equal treatment under 
law and in the workplace, access to fair housing, proper 
medical care, good schools, and opportunity led to massive 
demonstrations that fueled the civil rights movement nearly 50 
years ago.
    Today, that fight permeates the immigration debate. And as 
a lifelong civil rights advocate, I do not see the legalization 
of undocumented immigrants as an economic issue. I see it as a 
moral one, and I believe it goes directly to our most 
fundamental understanding of civil and human rights.
    Now, we do not condone the violation of immigration laws. 
But motives count for something.
    And when we consider why most undocumented immigrants come 
here, motivated by a desire to escape economic or political 
hardships that native-born Americans today cannot fully 
understand, it is clear to the Leadership Conference, and 
hopefully to everyone, that we should not treat them as 
fugitives.
    They should not be so afraid of the police that they do not 
even report crimes. When they work, they should know that they 
will be treated safely and paid fairly. And if they drive, it 
is in everyone's interest to make sure that they are obeying 
the rules of the road.
    And if they contribute and play by our nation's rules, they 
should live within the full and equal protection of the law.
    Now, with these thoughts in mind, the Leadership Conference 
looks forward to the vigorous and thoughtful debate over the 
STRIVE Act.
    And while the bill certainly needs to be improved in some 
areas, on the whole it represents a far more credible and 
pragmatic approach to fixing our nation's immigration system 
than H.R. 4437, the leading bill in the last Congress.
    Turning more directly to the subject of today's hearing, I 
understand it was motivated in part by a recent advertisement 
that appeared in Washington newspapers and with an African-
American purporting to blame immigrants for taking hundreds of 
thousands of jobs, and saying that legalizing undocumented 
workers would further devastate Black communities.
    And while I certainly share the legitimate concerns about 
unemployment and underemployment among African-Americans, I do 
not share the simplistic and divisive view that immigrants are 
to blame or that they are stealing jobs from any community.
    And I also think the situation is too complicated to be 
explained away in a one-page newspaper advertisement.
    Moreover, to those who have asked whether the ad represents 
the genuine views of the African-American community, let me 
respond in the following way. Putting an ethnic face on a 
factual distortion does not make that distortion an ethnic 
position.
    And for one thing, the employment crisis facing African-
Americans began long before our nation took a more generous 
approach to immigration in 1965.
    As you can see in my written statement, Black unemployment 
rates have always been twice as high as that for White workers. 
And they have stayed that way even as the percentage of our 
foreign-born population has increased.
    This higher unemployment rate is, above all else, the 
result of structural racial discrimination, past and present, 
not only in the labor market but also in other aspects of 
society such as the housing market, education, and criminal 
justice.
    And it is made worse by broader changes in the U.S. economy 
such as globalization and the movement of many types of jobs 
overseas.
    As far as whether immigration aggravates the situation, 
economists, as you have heard, have not formed a real 
consensus. Even among experts who do think there is an impact, 
they disagree over its extent.
    In the absence of significant evidence to the contrary, the 
Leadership Conference rejects the simplistic and divisive 
scapegoating of immigrants as reflected in the recent ad 
campaign that I mentioned earlier, and we urge the Subcommittee 
to do the same.
    Now, at the same time, we do recognize that the 
displacement of unskilled native-born workers is possible and 
is perceived to be a real problem. And indeed, it has to be 
addressed in some way.
    At the very least, the prospect of it has been used by 
restrictionists to drive a wedge between African-Americans and 
Latinos, or certainly to attempt to do that, and Asians as 
well.
    As such, the Leadership Conference takes the underlying 
concerns very seriously. And earlier this year, we organized 
leaders from African-American, Latino and Asian communities, 
and other progressive groups, to discuss how best to address 
these issues in the ongoing debate over immigration.
    We have followed that up by coming together in support of a 
statement of principles that we released today, urging Congress 
to take up, either as an amendment to comprehensive immigration 
reform or as a concurrent standalone bill, an analysis that we 
think will help in contributing to the debate.
    The statement has been signed by prominent African-
American, Latino and Asian civil rights organizations, 
distinguished scholars and progressive groups, all of whom 
recognize that while low-wage native American workers and 
immigrant workers historically have always been played off 
against one another, the reality is that all low-wage workers 
are exploited.
    And I am going to conclude with one final statement, Madam 
Chair. African-Americans also take note of how consistently 
people show their concern for us across the board.
    During last year's renewal of the Voting Rights Act, for 
example, the most important civil rights law we have, 
restrictionist voices that claim to be protecting African-
Americans now stood squarely against us then.
    Sadly, they have rarely been any more supportive when it 
comes to things like minimum wage, public education, Head 
Start, racial profiling, hate crimes--I could go on and on.
    To anyone who looks closely and doesn't rely on full-page 
newspaper ads, it is clear that restrictionists are not now, 
nor have they ever been, friends of African-Americans in terms 
of our economic or political interests. And certainly, as a 
community, we take that into account in the analysis of any of 
these issues.
    And thank you for the opportunity to be with you.
    [The prepared statement of Mr. Henderson follows:]
                  Prepared Statement of Wade Henderson
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ATTACHMENT

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Lofgren. Thank you very much.
    Finally, Dr. Briggs?

    TESTIMONY OF VERNON M. BRIGGS, JR., Ph.D., PROFESSOR OF 
       INDUSTRIAL AND LABOR RELATIONS, CORNELL UNIVERSITY

    Mr. Briggs. Thank you, Members of the Committee. I would 
love to respond to some of the other people and the 
presentations of today, but maybe we will get to that a little 
bit later.
    For over 40 years, Congress has been trying to respond to 
the unexpected consequences of the passage of the Immigration 
Act of 1965. Everything that the Congressmen sitting up there 
in 1965 said was not going to happen did happen.
    The return of mass immigration was totally unpredicted. 
Neither political party takes any credit for it. It didn't 
happen because any one of them pushed for it. It happened 
because of an accident.
    That is why they are great--as Father Hesburgh said, you 
have to be very cautious when you take immigration policy 
changes. There are unexpected consequences.
    The foreign-born population was 8 million people in 1965. 
It is 36 million today--completely unexpected. I am not saying 
it is good or bad. I am saying it was unexpected. It was not 
what was supposed to happen.
    Immigration is a policy-driven issue. That is why I urge 
you to consider the policy, which is what my life has been 
about, public policy. What you do makes a difference in this 
field.
    A lot of times, you can do policy and nothing happens. In 
this field, it does happen. And quite often, things happen you 
didn't expect.
    Samuel Gompers, America's foremost labor leader, in his 
autobiography wrote, ``Immigration is, in all of its 
fundamental aspects, a labor issue''--a labor issue.
    But no matter how people are admitted to the United States, 
what category they get in or how they come in, the adults join 
the labor force, and quite often their spouses and children 
eventually do, too.
    Thus, the labor market impact of what is done must be a 
guiding consideration, not the only one, but a guiding one, 
when legislative decisions are made.
    What is wrong with the existing immigration system? And I 
am quoting basically from the Commission on Immigration Reform, 
which every one of my recommendations follows--every one--
chaired by Barbara Jordan, an African-American, lest anyone 
forget.
    The major conclusion of the Jordan commission was that 
there was an incompatibility between the human capital being 
provided by our foreign-born population and that of the native-
born population of the country as a whole. That is even worse--
57 percent today.
    Fifty-seven percent of the adult foreign-born population 
have only a high school diploma or less. That is where the 
impact is. And that is the people I defend, the low-wage 
workers of the United States of all races.
    And that is the ones that are being most adversely affected 
by immigration policy, which is exactly what the Jordan 
commission concluded.
    And every study that I know about impact of immigration on 
low-wage workers has said they are the ones who are adversely 
impacted. I don't dismiss that.
    Some people say well, somebody else benefits. These guys 
lose. It is a negative--net gain. It is wrong.
    Any public policy that hurts the poor, the low-income and, 
the minority and youth and women population of the United 
States, as a product of it, is a policy you have got to be 
deeply concerned about, that it disproportionately impacts.
    The Clinton administration, the Council of Economic 
Advisors, which I quote, clearly stated that in their report, 
that ``the relative supply of less educated persons has 
contributed to increasing income equality in the United 
States.''
    And today, the unemployment rate for people without high 
school diplomas is 6.8 percent. For the Black workers without 
high school diplomas today, it is 12.8 percent. Those are the 
ones still searching for jobs.
    The second major problem of our immigration system, of 
course, is the massive abuse of this system. We have 36 million 
foreign-born persons. Twelve million are illegal. We have had 
seven other amnesties since 1986.
    I supported the amnesty in 1986, strongly. That gets a lot 
of criticism. But that was the last amnesty that we should have 
ever had. And there should never be another one.
    We have had seven since then, legitimizing 6 million 
illegal immigrants, so big that we can say maybe half the 
foreign-born population in the United States today is in here 
in defiance of the public policy. Something is wrong with the 
public policy when half the people that are in the country have 
broken the law coming in.
    The losers when you have illegal immigration are the low-
wage workers--United States--who have to compete in terms of 
their labor market for those jobs, and many of them become 
discouraged and leave the labor force. These are the people who 
need protection of the law the most.
    Lastly, there is evidence that without any evidence of real 
labor shortages, in my view there is massive abuse of the 
temporary worker programs we already have today.
    The massive expansion of visa programs for unskilled 
workers I think is unjustified, and certainly for even skilled 
workers is questionable.
    What do we do to reform this? And these are exactly the 
commission--this is where immigration reform goes. I am not in 
favor of comprehensive immigration reform. I am in favor of 
real immigration reform.
    And this is exactly what the Jordan commission said. The 
first thing we want to do is to begin to deal with this issue 
of incompatibility of human resources.
    And they suggest that getting rid of those extended family 
categories--the three of them in which a lot of extended family 
members come in on the coattails of people who come in legally 
in the United States.
    And that is what throws the system--the human resources out 
of kilter with the labor--the human resource needs of our 
population--to delete those categories.
    And that reduces the chain migration effects, which is the 
most dangerous thing about the amnesty program, is the 
potential chain effects down the trail. If we follow the Jordan 
commission, that would diminish that issue.
    It might make some support for amnesty more acceptable. But 
it is impossible to accept it today with that chain migration 
system--effects in the system.
    And Barbara Jordan made it very clearly--the first thing 
that they recommend is that there, of course, be ``no unskilled 
immigration under the legal immigration system.'' None. And 
that ought to be cut out.
    What should we do to--I will be very quick here. What 
should we do, in terms of immigration reform? Strong 
enforcement of employer sanctions. It should be the 
centerpiece, as Father Hesburgh said it was supposed to be.
    That should be the focus of everything we talk about: 
stronger enforcement. That is the first thing we must do; show 
this law is going to be enforced. Enforcement must become a 
reality. There must be no amnesty, for all the reasons I put 
down there, most importantly, the extended family categories.
    And what it would do--and in my view, it could lead to a 
Marxian nightmare 10 years or 20 years from now when all the 
family reunification principles kick in of amnesty for 12 
million people, and tens of millions of more persons come in on 
the coattails of those who have been given amnesty.
    We can expect massive fraud in--so that even more will come 
in. We can expect that the low-wage labor market will simply be 
inundated, and this will disproportionately affect African-
Americans, Latinos and all low-wage workers. They will be 
disproportionately affected by amnesty.
    And finally, of course, it is inconceivable that the 
Department of Homeland Security could ever administer a massive 
amnesty program.
    Well, I talk about non-immigrant labor, which I--be just 
with respect to guest worker programs, just in conclusion.
    How can anybody in Congress be advocating for guest worker 
programs, when every commission--every commission--has said no 
guest worker programs for unskilled workers? How is it possible 
people could still be talking about this? And every reputable 
scholar who has studied guest worker programs, for the reasons 
I outlined in my testimony, has shown it always fails.
    Well, there is a lot more that could be said, but I am 
outnumbered.
    [The prepared statement of Mr. Briggs follows:]
              Prepared Statement of Vernon M. Briggs, Jr.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Lofgren. Thank you, Dr. Briggs. And your full statement 
is a part of the record, and I have read it, and I hope the 
other Members have.
    Before beginning the questions, I have decided to take my 
place at the end and defer to the Chairman of the full 
Committee, who is here, and let him begin with his 5 minutes of 
questioning.
    Mr. Conyers?
    Mr. Conyers. Well, that is very kind of you, Madam Chair. I 
appreciate it very much.
    Dr. Briggs, you caught me offguard this afternoon. It is 
late in the day.
    You agree with Barbara Jordan, but the larger question is, 
would Barbara Jordan agree with you?
    Mr. Briggs. I hope so.
    Mr. Conyers. Her successor is here, so that I know that 
conversation will be continued.
    But I would like you to examine, sir--and I would like to 
continue this discussion in writing or in person out of the 
Committee--by introducing you to the statement of principles 
referred to by Wade Henderson and see how they compare with 
some of the views that you have expressed. There may be some 
areas of agreement.
    And I would like unanimous consent to introduce these into 
the record at this time.
    Ms. Lofgren. Without objection.
    [The information referred to is available in the form of an 
attachment to Mr. Henderson's statement.]
    Mr. Conyers. This is such a difficult program. We have all 
these organizations--the Coalition for the Future of the 
American Worker, the FAIR, NumbersUSA, all alleged civil rights 
organizations that are ready to pounce upon the fact that 
African-American workers at the bottom of the workforce--and 
yet the greatest unemployed: double the unemployment is a 
modest statement in some areas of our country. You can talk 
about 40 percent and 50 percent unemployment.
    And so I thought we were going to really be able to get 
into this, but the restrictions of the 5-minute rule and the 
two panel and four or five witnesses a panel--let me just lay 
some things out.
    And I would like to open our Committee office and my staff 
to all of you to make comments to me about this.
    You see, immigration can't be solved without a lot of other 
economic factors being addressed, if not resolved. And I am 
glad to hear that we are talking about winners and losers.
    I make a point, too, in my little set of notes. Our 
colleague, Maxine Waters of California, on this Committee, a 
sterling Member, she told me--and I didn't know I was going to 
repeat this in public. But she told me that all of a certain 
kind of job in Los Angeles--I don't know if it was bus drivers 
or hotel workers, I don't know what it was--but she said every 
single position that had an African-American worker has been 
replaced by what appears to be an immigrant worker.
    And it is a serious problem, because I need to be made more 
comfortable in this discussion. And believe me, this Committee 
is holding three times as many hearings on this bill than any 
of our other Committees are meeting.
    I mean, it is a highly industrious activity because of the 
complexity. But if immigrants are taking low-paying wages, 
somebody had the job before they got it. So you know, here all 
of you on--we are going to see each other and talk this thing 
out.
    But I may not be seeing all of you, Dr. Jaynes and Dr. 
Friedberg and Dr. Briggs, as much as I will be seeing others 
about this.
    But in my simplistic way of thinking, somebody got 
replaced. Now, who did they get a job from? Or what happened to 
them? Where did they go?
    And I can't resole my position on the complex formation of 
a bill. I think we need major reform.
    Okay, next point--and you can all answer these after I get 
these--well, I only have two points. A full employment policy. 
Now, the last time I was working on full employment was with 
the Humphrey-Hawkins Full Employment and Balanced Growth Act.
    Coretta Scott King came up here. They were about to dump it 
in the Senate. And we were able to get it into law. I must say 
it has never been used in the law. It is still sitting up 
there.
    But to talk about how we are going to resolve this huge 
workforce relocation without talking about a massive training 
and creation of new jobs strikes me as something that we ought 
to be very careful about.
    Now, my time has expired, and I can do one of two things: 
Ask for your time, or----
    Ms. Lofgren. Or we would ask for unanimous consent to allow 
the witnesses to address the Chairman's questions.
    Mr. Conyers. Or that. That is a probably more realistic----
    Ms. Lofgren. And of course, since we are the Chairmen, 
there is unanimous consent.
    Mr. Conyers. I had forgotten there was that option as well.
    Now, let me ask Wade Henderson to begin a discussion, a 
critique, of what has been going on here from my perspective.
    Mr. Henderson. Well, Chairman Conyers, you have raised, I 
think, one of the most important questions in the debate of the 
day, which is how does one explain the perception that 
Congresswoman Sheila Jackson Lee alluded to with the first 
panel, which is that even though the evidence would suggest 
there is no displacement of workers as between undocumented 
workers and native-born workers who hold low-paying jobs, low-
wage workers, there is certainly anecdotal evidence to suggest 
that.
    The problem you alluded to, for example--and whether it is 
the hotel industry or the construction industry--is an issue of 
great concern to many in the civil rights community and, as you 
might imagine, to communities with low-wage native-born 
workers, whether it is African-American or legal immigrant 
workers or others. There is real concern.
    Bernard Anderson, Dr. Bernard Anderson, formerly of the 
Department of Labor during the Clinton administration, the 
first tenured African-American professor at the Wharton School 
of Economics, has looked at these issues over the years and 
analyzed comparative data. We allude to it in our testimony.
    He suggests that there is some evidence that workers who 
held those jobs previously moved up the economic ladder and 
made available new slots that were then filled by a new 
generation of workers.
    There is some evidence to support that as well. The notion 
that workers today won't do jobs that previously they once did 
is true but only to the extent that wages are inadequate and 
insufficient to attract them to do the work.
    There are real factors of exploitation involved and real 
structural discrimination.
    And I would say to you that the phenomenon that African-
Americans have experienced throughout our obviously complex 
history with our own country--which is that there have been 
instances where African-American workers are preferred in 
certain subservient jobs, in contrast to native-born White 
workers.
    But as they become aware of their own rights and choose to 
exercise those rights, either by forming unions or being more 
outspoken and challenging employer practices, they are then 
replaced by undocumented workers who follow a pattern of 
subservience more akin to the earlier experiences of African-
Americans before they became fully aware of their rights.
    So I mean, there are, indeed, complex patterns of behavior 
and job circumstances that can't entirely be explained with 
economic analysis and data alone. But we are looking into those 
issues.
    We are working closely with economists. We are working with 
our friends in organized labor and a broad variety of unions.
    And we are trying to determine whether a supplemental set 
of economic initiatives, like those which we have outlined in 
the principles you alluded to, might be able to help, either 
incorporated in an immigration bill or a standalone 
supplemental bill.
    Mr. Conyers. Thank you so much.
    Mr. Henderson. Thank you.
    Mr. Conyers. Dr. Jaynes, can you help me sleep more 
comfortably tonight after having been in this hearing? What is 
your guidance for us up here?
    Mr. Jaynes. Well, Congressman Conyers, I actually am 
familiar with the data, in fact, that you gave with respect to 
Los Angeles, and it is the hotel industry.
    Two things about that. First, you can always find these 
particular examples where you could point to something like 
that and attempt to extrapolate it across the entire country, 
but that is precisely what the studies are showing, that the 
extrapolation doesn't really work.
    Where you can find a negative impact like that, you can 
find several positive impacts which sort of wash it out. Now, 
of course, that wouldn't necessarily make people in Los Angeles 
happy if they had lost jobs.
    But the other component to that is it is not simply a case 
of one day you woke up and there were a lot of African-
Americans working in this industry and on Wednesday morning 
they were all replaced by Latino workers.
    This has been an expanding industry in Los Angeles. And by 
and large, Latino workers are the ones who have been getting 
the jobs as it expands.
    Now, part of what Mr. Henderson just said, that African-
Americans are, indeed--as the older ones leave the labor force 
and younger ones come in, they are better educated, they have 
other levels of skills, and they are taking other kinds of 
jobs.
    So all of that tends to explain it. That doesn't mean that 
there aren't any African-Americans who wanted jobs in the hotel 
industry in Los Angeles and didn't get them. There indubitably 
must be some.
    But overall, I don't think that the major problem with 
respect to African-American employment in Los Angeles or 
anywhere else is due to immigration.
    One other point about this perception thing. It is true 
that African-Americans, when you look at polling data--and I am 
talking about polling data not just recently, but polling data 
going back to the early 1990's--it is true that African-
Americans are more likely to say that immigrants take jobs from 
native-born Americans.
    However, two further points. That is still a minority of 
African-Americans saying that. And secondly, even though 
African-Americans say that, they are more likely than others to 
still look positively toward immigration and immigrants.
    Mr. Conyers. Glad to hear all of your comments.
    And thank you, Madam Chairman.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I now recognize Mr. King.
    Mr. King. Thank you, Madam Chair.
    Mr. Henderson, in reviewing your testimony--and I direct 
you, if you could, to page five of your testimony, at least as 
I count those pages, you have a paragraph that begins, ``In 
closing, I would like to add that civil and human rights 
organizations do take note of how consistently or 
inconsistently''--and I would ask you to focus on this phrase--
``inconsistently in this case advocates for restrictive 
immigration policies show their concern for the welfare of 
African-Americans.''
    That phrase ``in this case''--could you inform this panel 
as to whom that refers to or what entity that might refer to?
    Mr. Henderson. I don't think it refers specifically to any 
entity, Congressman King. What it says, in effect, is that 
African-Americans as a community look at the totality of 
positions taken by those who both support our positions and 
those who would seek to oppose them.
    And what we have found is that there is a fundamental 
inconsistency. There are many who would use the----
    Mr. King. And I did read that testimony, and I heard you in 
your testimony where you already presented that orally.
    And as I look at this, you state that immigration 
restrictionists have been opposed to Head Start, are for racial 
profiling, apparently, against affirmative action and against 
hate crimes, and the list goes on.
    Mr. Henderson. Yes.
    Mr. King. But I would direct your attention to the 
paragraph above that that says, ``African-Americans understand 
that it is inherently wrong to divide people along the lines of 
race or ethnicity or national origin, and that creating us-
versus-them scenarios does not help anyone in the long run.''
    Would you acknowledge that there are people of good will 
and people of good intellect that believe that these policies 
that you advocate actually divide people along the very lines 
that you have identified that I just read to you?
    Mr. Henderson. No, I reject that, Mr. King. Quite frankly, 
I think----
    Mr. King. Okay. And then you--okay. I hear your answer to 
that.
    Mr. Henderson. Okay.
    Mr. King. Now I would ask you, then, that as I read this--
from my side of this view, as I read this, this is a thinly 
veiled allegation of racism.
    Mr. Henderson. Not at all.
    Mr. King. And I would ask you, do you believe that----
    Mr. Henderson. That is your term, not mine.
    Mr. King. Okay, then I will ask you a direct question.
    Mr. Henderson. That is your term, not mine.
    Mr. King. Do you believe that the people who are 
immigration restrictionists, by your definition, are racists?
    Mr. Henderson. I was quite precise in the language I chose 
to use, Mr. King. What I said----
    Mr. King. So was I, Mr. Henderson.
    Mr. Henderson. Well, what I said was that immigration 
restrictionists have practiced wedge politics, divisive 
politics, and I think it is harmful to the country.
    Mr. King. Would you, though, answer my precise question?
    Mr. Henderson. Which is?
    Mr. King. Which is, do you believe that immigration 
restrictionists are racist?
    Mr. Henderson. No, I never used that term.
    Mr. King. Do you believe they are?
    Mr. Henderson. I am not going to characterize----
    Mr. King. In other words, you won't say you don't believe 
they are. You won't answer me.
    Mr. Henderson. Well, I think that group indictments and 
group libel are inappropriate.
    Mr. King. Then I will ask you specifically. Do you 
personally believe that?
    Mr. Henderson. I am responding. I am responding to your 
question.
    Mr. King. You are, I agree.
    Mr. Henderson. I don't think you asked a question about 
whether we believe that restrictionists in their entirety are 
racist. If you ask me about an individual who has taken a 
particular position, I would answer that based on----
    Mr. King. I have taken these----
    Mr. Henderson [continuing]. The best of my ability.
    Mr. King [continuing]. Particular positions, so I will 
ask----
    Mr. Henderson. But I will not--I will not----
    Mr. King [continuing]. You about me. Do you believe that?
    Mr. Henderson [continuing]. Make a group libel. I will not 
make a group libel, notwithstanding your view.
    Mr. King. Do you believe, then, that I am a racist?
    Mr. Henderson. Why would I believe that, sir?
    Mr. King. I read this, and I will tell you that I am often 
told how people interpret what they read. I am telling you how 
I interpret that.
    And I am asking you if you could give me a clear answer to 
that, and you said you reject that people of good will can 
disagree on that.
    Mr. Henderson. Congressman King, I don't know you nearly 
well enough to make a determination of your personal views on 
issues of race.
    Mr. King. I agree with that.
    Mr. Henderson. I would hesitate to make a comment about 
whether you are or are not racist. Only you, I think, could 
make that determination in the context at hand.
    Mr. King. If I hadn't made that determination, I wouldn't 
have had enough guts to ask you that question, Mr. Henderson, 
and I appreciate your response to it.
    Mr. Henderson. Thank you.
    Mr. King. And I would then--let's see. Would you, then, 
draw a distinction between legal and illegal immigration?
    Mr. Henderson. I draw a distinction between legal 
immigration and undocumented immigration. The answer is yes, I 
do draw a distinction.
    Mr. King. And you think there should be some consideration 
and policy for those two.
    Mr. Henderson. Certainly, I think that the United States, 
as any sovereign nation, has the responsibility to control its 
immigration policies. I believe that is an inherent 
responsibility of sovereignty.
    Mr. King. I appreciate that distinction.
    And I turn to Dr. Jaynes. And I am going to give you just a 
very quick scenario here, and that is I recall reading a 
study--it was in the Des Moines Register some years ago--where 
they had gone into the city of Milwaukee, in a neighborhood, 
and studied 36 square blocks, all households in those 36 square 
blocks.
    And that was a neighborhood that had migrated up to 
Milwaukee from the South about the same time that the Okies 
went to California during the Depression era and up to World 
War II, to take those good union jobs that were in the 
breweries and those kind of jobs that were there in Milwaukee.
    And they interviewed every household, and it was African-
American households in each one of those, because that was the 
neighborhood that they chose, and there wasn't a single working 
male head of household in those 36 square blocks.
    And so, you know, as I listened to the Chairman's 
discussion about this and the anecdotal evidence, this is one 
of those studies that I have read that is more than anecdotal.
    And I want to encourage people to be working that are in 
this country that are people that are lawfully present here. 
When I see a study like that, I don't know how to explain that.
    And I would ask if you could do that for this panel, 
please.
    Mr. Jaynes. Well, I think I maybe missed something in your 
explanation. You said that the study was done during the 
Depression?
    Mr. King. No, they migrated there during the Depression and 
this study was done----
    Mr. Jaynes. Oh, they migrated during the Depression.
    Mr. King [continuing]. About 6 years or 7 years ago when 
the study was done, so it would be second-or third-generation 
people that had--in that neighborhood.
    Mr. Jaynes. Well, what you are trying to--you are asking me 
to give an answer to the fundamental question for the low-
income African-American population; that is, what explains low 
levels of labor force participation that has been going on over 
approximately the last four decades?
    Mr. King. Yes.
    Mr. Jaynes. We have nothing close to the time allowed here 
for me to go into that. If you wanted me to actually give you 
an answer to that, I could send you something in writing.
    Let me say, however, that the fact that that question 
persists and exists is precisely one of the major reasons why 
one would say let's look at the facts that such low labor force 
participation, joblessness, unemployment levels have existed 
even before the 1965 Immigration Reform Act--or not reform act, 
but the 1965 Immigration Act.
    And it is one of the less technical reasons why one might 
believe that contemporary immigration is not the fundamental 
reason why we have low levels of employment and low wages among 
less-educated African-Americans.
    Mr. King. I would just say quickly, Dr. Jaynes, that I 
understand the economics but I don't understand the sociology. 
And I would look forward to--if you would, very seriously, help 
enlighten me on the sociology of that question that you 
offered. Appreciate it very much.
    And I thank you, Madam Chair, and I yield back.
    Ms. Lofgren. Thank you.
    I would yield now to Members who have planes to catch. And 
first, our colleague, Mr. Gutierrez.
    Mr. Gutierrez. You are wonderful, Madam Chairwoman. Thank 
you so much for calling this hearing and allowing me to address 
this very distinguished panel next.
    I would like to say, first of all, thank you for your 
written testimony. It is going to help us immeasurably as we 
look at this issue, and so I thank all of the members of the 
panel, because I know it is late on a Thursday, and you have 
been wonderful to come here and speak to us.
    I would think, Madam Chairwoman, we might want--just an 
idea, just a suggestion--we might want what comes as evidence 
here, is to have a broader conversation, because I think some 
of the underlying things here are about race, and how it is we 
get along, and how it is we perceive each other outside of the 
debate of immigration, and how that impacts our relationships 
both here in the Congress and in our greater community.
    And so I know that African-Americans and Latinos--I mean, 
we need to respond to these ads, and we need to have an honest 
conversation amongst ourselves so that we can bridge those 
kinds of gaps, as we have done--as Mr. Henderson has so clearly 
stated we have done in the past, and how we have voted, the 
values we have represented and defended here in the Congress of 
the United States, because regardless what is on that ad, 
history shows that we have so much in common.
    We have fought for so many of the same things. I mean, let 
me just say thank you to Mr. Henderson and the organization and 
organizations that he represents and those that he worked for 
before, because those that had his job before him made it 
possible for me to be a Member of Congress.
    Obviously, my parents raised me well, gave me a great 
education. But someone fought for civil rights legislation, for 
voting rights legislation, which led to creations of districts 
in which I could be competitive.
    And we continue. I would just like to say that I think we 
need to have that conversation. If this panel moved me to 
nothing else--you know, I am so happy that someone took the ad 
on.
    And it is opening up a series of questions for me of what 
we need to do as a community of people within the Congress of 
the United States.
    Let me just say the following. I don't know if the 
restrictionists and the nativists are guided by prejudice, are 
guided by hatred.
    I can only say that history tells me that when the Irish 
arrived, they said they were the hungry, uneducated people who 
came to our shores that were going to undermine our society 
because they weren't White Anglo-Saxon Protestants.
    I think they were wrong about the Irish, and I think 
history has shown that to be wrong.
    The New York Times at the turn of the century wrote in one 
of their editorials, ``Only by the rule of law can we hope to 
contain these people,'' referring to Italian immigrants to this 
nation. You know, once we said to the Chinese, ``Build our 
railroads,'' and then we excluded them specifically.
    So politics--politics--and the use of race and prejudice 
and bigotry and some of those more base instincts as human 
beings that we unfortunately still have to deal with, have been 
used within the immigration debate throughout the history of 
our nation. And that is something that is undeniable. And so as 
America grapples with this, it is going to have to, obviously, 
take other things under consideration.
    I would like to say, lastly, look, we create, Dr. Briggs, 
hundreds of thousands of low-skilled, low-wage jobs every year 
in this country. That is just a fact.
    And as an industrialized nation, we have a better-educated, 
better-equipped community of people that is getting better-
educated. That is a good thing. That is a society that is 
fulfilling its responsibility to those of us that are members 
of it. The people are getting better education.
    But our economy is creating other kinds of jobs. It is the 
reality of our system. Yet we have 5,000 visas for low-wage 
workers.
    We share a border, the longest uninterrupted border between 
a Third World nation and an industrialized nation. It is part 
of our hemisphere.
    And we had better understand, because many of the same 
people who today are restrictionists on immigration reform and 
against comprehensive immigration reform were the first to 
extol the values of NAFTA, and integrating our economics, and 
allowing products to cross the border.
    But with that crossing of products and industry and in that 
globalization, which we all believe is good at the end game, 
are going to come communities of people that are impacted.
    And history has shown us that people, especially those in--
agricultural workers, as been done in Mexico, we cannot--how do 
you expect, under NAFTA, for workers in Mexico, which have two 
or three acres, to compete with our agri-industrial business in 
Kansas?
    Of course, we are the best at putting corn out there. We 
are the most efficient. They have suffered greatly. So winners 
and losers.
    I want to make sure that as we have this conversation, 
Madam Chairwoman, that we take--and that we have--you know, we 
not simply say there are going to be winners and losers.
    Let's look for winners. Let's look for the best that we 
can. And I thank the members of the panel immensely for their 
contribution here this afternoon.
    Ms. Lofgren. The gentlelady from Houston and the successor 
to the Barbara Jordan seat in the Congress, Sheila Jackson Lee.
    Ms. Jackson Lee. Madam Chair, you honor me, but we all pay 
tribute to the Honorable Barbara Jordan, who the very esteemed 
Chairman of the full Committee had the distinguished role of 
being on this other body, the Judiciary Committee, during her 
tenure. And I am reminded of the kind words that she offered 
about John Conyers.
    And I thank the Chairwoman as well for yielding to me. I 
got an e-mail about a plane about to depart, so I thank you for 
that. I will pose some questions.
    Let me acknowledge a point of personal privilege, Dr. 
Jaynes, as a graduate of the college at which you now teach, I 
am very proud that you are here. I won't give you the year that 
I graduated from Yale, but I am delighted that the African-
American Studies Department is still going strong.
    Judge Leon Higginbotham said that race matters. And I join 
with my colleagues. I think this is a vibrant, vigorous 
discussion, and I would encourage maybe a roundtable briefing.
    I am going to offer, Mr. Henderson, that the principles 
become a construct. Frankly, I believe that there can be a dual 
partnership with comprehensive of immigration reform and travel 
on the same legislative vehicle.
    The reason why I say that is that we have focused our 
attention today, Dr. Briggs, and we have used African-
Americans, Hispanics--but going to parts of Ohio, parts of 
Appalachia in West Virginia, and a number of other areas, and 
we can cite others of low economic levels who will be moved by 
the suggestion that I am being put out because new workers are 
here.
    Frankly, I think that our economic policies are really the 
ruin of our existence. We stopped manufacturing. I mean, that 
was the level of integration into a better life.
    As the immigrants came in the 1800's and then in the 
1900's, some of them moved into the Rust Belt, and they began 
doing the kind of large manufacturing, and they became at least 
the underpinnings of the middle class.
    And many were African-Americans who had come from the 
South. So we know that if the turning of the economy has a 
certain bend to it, making things with your hands or building 
things--the Detroit phenomenon--we know that people are 
employed, and employers will not care who you are.
    But the idea is that our work has changed. And in the 
course of our work having changed, society has been, if you 
will, unsympathetic to young African-American males, to the 
creation of single families, to drug addiction and other 
elements.
    But I do want to make the point that this is a broad 
question. It impacts people of all economic levels. So I want 
to raise this quick point.
    Dr. Jaynes, quickly, you indicated that you are ready to 
concede, at least, that immigration probably hurts the 
employment and wages of some less educated persons, but you 
still conclude immigration is a net benefit to the United 
States, and I do, as well.
    Do you then think that, as we move for comprehensive 
immigration reform, as we look at some of the principles that 
Dr. Henderson has offered, that we can look to job creation, 
job retention, non-discrimination, wage increase so that we get 
the pool of workers that feel left out, even though, as I said, 
it is perception rather than, in many instances, reality?
    Can we move that along as we move comprehensive immigration 
reform?
    Mr. Jaynes. Yes. I absolutely believe that that should be 
part of the entire debate and process.
    Ms. Jackson Lee. Dr. Briggs, I note that you use the word 
amnesty. It just gets me, and I respect--might I say, if the 
honorable Barbara Jordan had lived, one thing I always 
understood, she was a listener. She grew with the issue. She 
understood the Constitution. And she was eloquent on the words 
we, the people.
    And I know that she had the chairmanship of that Committee 
and talked about an I.D. card, but she also had the broadness 
of embracing people.
    We have leaders of industry--construction, agriculture and 
service workers--who believe that their particular industry 
would collapse without the broadness of the workers that we 
need here. What would you do with those industries, service and 
otherwise, who need that employment base?
    And have you read the basic legislative initiatives that do 
not define this as amnesty? It defines it as a process, an 
orderly process.
    But just answer the question about these industries who are 
utilizing this new workforce.
    Mr. Briggs. Well, an amnesty is an amnesty. I mean, you 
could change the words, but it is still an amnesty.
    But the question you asked----
    Ms. Jackson Lee. In your mind, but I understand we disagree 
on that. But just how would you address the question of the 
large need of a workforce in these areas?
    Mr. Briggs. Employers want cheap labor. And that is what 
illegal immigrants give. The question that is before--most of 
what has been said here today is absolutely irrelevant to this 
question of illegal immigrants on the labor force.
    Illegal immigrants are preferred workers. When you put them 
into competition--and if an employer can have them--our 
business men are not evil. They are pragmatic.
    If you give me people who are glad to work for $5 an hour, 
or $5.15 an hour, because they make $5 a day in Mexico, I want 
those people. I don't want American workers.
    And that is what anybody, regardless of their race--it is 
impossible to compete with illegal immigrants. Of course they 
say that--but I will tell you this. I don't think Americans are 
going to stop eating just because--if they had to pay a little 
bit more to agricultural workers. I got in this----
    Ms. Jackson Lee. Well, may I reclaim my time?
    Would the Chairwoman just indulge me an additional minute 
just to answer the gentleman?
    Ms. Lofgren. Without objection.
    Ms. Jackson Lee. And I will leave it at this.
    Dr. Briggs, I can step away from this seat and come down 
and shake your hand and say we can work together. Let me tell 
you why. I think you are not listening.
    In the course of the testimony here, everything you said a 
new comprehensive immigration reform will cure. One, increase 
of wages. Two, a non-discriminatory workplace. Three, the 
recruiting of workers from all over, giving people the 
opportunity--American workers, for example--you want to be in 
the agriculture business in the--I want to put a scientific 
terminology to it--the gathering of products.
    Do you want to be in the service industry? Do you want to 
be in the construction industry? All of those opportunities--we 
are trying to cure the cancer of illegal immigration.
    Mr. Briggs [continuing]. Guest worker program.
    Ms. Jackson Lee. Let me reclaim my time.
    Mr. Briggs. Because it will not--it will lower wages.
    Ms. Jackson Lee. Let me reclaim my time, and I appreciate 
your intensity. I am not putting any names on anything. One, we 
have 12 million or a number undocumented. And what I am saying 
to you is we will cure the ailment by documentation.
    And therefore, no one on this panel is arguing for low 
wages, so I thank you. I want to work with you.
    Ms. Lofgren. The gentlelady's time----
    Ms. Jackson Lee. Dr. Henderson, I just----
    Ms. Lofgren [continuing]. Has expired.
    Ms. Jackson Lee [continuing]. I would just finish on this 
point. This is an excellent construct. I believe it needs to be 
in conjunction with the traveling vehicle, because that will 
bring forward the people who, if you will, have bought into the 
myth that their jobs are being lost.
    And I thank the gentleman. I would love your answer, but I 
yield back to the----
    Ms. Lofgren. The gentlelady's time has expired.
    I am going to be very quick, because the hour is late. But 
I do want to just follow up with Dr. Friedberg very carefully 
on her analysis.
    And I was interested in the economic analysis that I have 
read, talking about some industries where there is heavy 
participation of immigrant labor--for example, in the 
landscaping industry and some others--and the assertion being 
made that actually I think I--just the way I have lived, I have 
observed, is that at some point, rather than raise wages, you 
eliminate the industry.
    And I will just give you an example. I mean, growing up in 
California, I didn't know anybody who had ever hired anybody to 
mow their lawn other than a kid for 50 cents. Now, everybody 
has a landscaping service that they pay.
    So you know, I think that is a--and if it was a lot more--
there is a limit to how much you will pay. I mean, at some 
point you will go buy your own lawn mower and go back to the 
way it used to be.
    So I thought that was an interesting piece of the 
testimony. I also wanted to talk about, and have you explain, 
the Mariel boat lift study, because I am fascinated by that.
    We had how many? Thousands of Cubans who came, but they 
came legally, and I don't understand--if you could just detail 
the specifics of who didn't get displaced and how that could 
happen.
    Can you explain that?
    Ms. Friedberg. Well, the Mariel boat lift study, which was 
done by David Card, analyzed the 125,000 Cubans who came to 
Miami and compared them--excuse me, looked at the outcomes of 
native-born workers in Miami, and compared them to similar 
workers in similar cities.
    So he broke workers down into groups--White, African-
American, Hispanic and earlier waves of Cubans--and looked at 
cities that had similar demographic and economic 
characteristics--Houston, L.A., Atlanta, and Tampa.
    And basically, he compared what happened to the natives in 
Miami compared to the similar natives in other cities, and 
found virtually no effect on the wages or unemployment rates of 
less-killed workers in any of these groups.
    Ms. Lofgren. Well, how could that be?
    Ms. Friedberg. So the first part, the study, is what 
empirical economists are good at. The next part is somewhat 
speculation. Further research is needed to see exactly what are 
the mechanisms that enabled the economy to absorb such a large 
number of immigrants.
    Some ideas are, first, that production techniques are 
flexible, so in places where there is a large supply of less-
killed workers, we see that firms shift--find ways to use those 
workers in order to increase efficiency and lower cost.
    And second, to some extent, immigrants and natives are 
almost never perfect substitutes.
    If you think about it, even when on paper they have the 
same education and experience, the native-born worker has 
English as a native language, American education, American work 
experience, networks of people for, you know, job networks, 
informational networks. So you know, that is something also 
that economists are looking into.
    But the fact that the economy is able to absorb a large 
number of immigrants is something that the research has found, 
and the mechanism for that is something that the research is 
working on.
    Ms. Lofgren. I would just like to thank all the panelists 
and note that as we have gotten the testimony about how 
immigrants who are risk-takers have actually increased the 
economic activity of the United States, and your eloquent 
testimony, really, about not allowing divisiveness to defeat 
that opportunity for the United States--as we listen to this 
testimony, I have been thinking about the other roles we have 
on the Judiciary Committee.
    And some of the testimony and efforts that we have made to 
address the issues of racism and poverty--and Bobby Scott in 
particular, our Chairman of our Crime Subcommittee, addressing 
the issues of especially African-American young men who are 
disproportionately incarcerated.
    And the issue that we--as a country, we are doing nothing 
about that--nothing about that. And preventing the creation of 
Google is not going to address that issue. But it is an issue 
that our country needs to resolve.
    And so I am actually very appreciative of the time you have 
spent here.
    And in addition to coming up with a comprehensive approach 
to the immigration issues that we face, I am now beginning to 
understand that this may also lead us, finally, to have a more 
vigorous effort to address these other issues, these typically 
American issues that we have for so long ignored.
    So on that note, I will note that we will--may have 
additional written questions that we will send to each of you, 
and we would ask--the record will be open for 5 days, and we 
ask that if we send you questions, if you are able to respond 
promptly we would appreciate that very, very much.
    I would note that next week we have two additional 
hearings. On Tuesday at 9:30 in this hearing room, we will have 
a hearing on the role of family-based immigration in the U.S. 
immigration system. And on Friday morning at 9 a.m., again in 
this room, we will have a hearing on the impact of immigration 
on States and localities.
    Thank you very, very much for your participation.
    This hearing is adjourned.
    [Whereupon, at 5:40 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
 Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
                         and International Law
    Today marks the sixth hearing in a series of hearings dealing with 
comprehensive immigration reform. This subcommittee previously dealt 
with the shortfalls of the 1986 and 1996 immigration reforms, the 
difficulties employers face with employment verification and ways to 
improve the employment verification system. On Tuesday May 1, 2007 we 
explored the point system that the United Kingdom, Canada, Australia, 
and New Zealand utilize. Today the focus of the discussion turns to the 
U.S. economy, U.S. workers and immigration reform
    Let me start by stating that in order to achieve a practical, and 
sensible resolution to this debate about comprehensive immigration 
reform we have to get past the tremendous amount of devisive, hurtful, 
and untruthful rhetoric that has clouded the discussion. That is why 
today's hearing is so important. We will get past the myths, and try to 
uncover the truth. So I ask my fellow members to look beyond the 
rhetoric, roll up your sleeves, listen to what our witnesses have to 
say about the effect of the immigration population on the U.S. economy 
and workers, and take the next step towards a solution.
    There is a grave misconception that foreign-born workers are a 
drain on our economy (i.e.--public schools, hospital emergency rooms, 
and public assistance programs) when in actuality studies have shown 
that this is not the case. These are hard-working individuals who hold 
multiple jobs, and although they may send money back to their home 
countries, they must still be able to provide for their own groceries, 
housing, transportation, and other basic needs here in the United 
States. This means an entire population of workers who shop at our 
grocery stores, utilize our public transportation, eat at our 
restaurants, and shop at our malls. Also, many individuals in the 
construction, agriculture, and service industries will tell you that 
the potential loss of this workforce will have a devastating impact on 
our national economy.
    The most popular stereotype about the low-skilled foreign workers 
is that they are taking jobs from native-born workers. Unfortunately, 
many individuals in the anti-immigration camp have sought support from 
the black community, by pitting Latinos against blacks. Yet, the focus 
ought to be on the employers who exploit foreign born workers at the 
expense of native born workers. Further, studies show that the effect 
of immigrant workers on native-born workers is minimal at best. Fact of 
the matter is that since the passage of the Civil Rights Act, the black 
middle class has seen substantial growth, thus the argument that 
immigration is having a disproportionate effect on blacks is in part a 
disingenuous argument. Studies have shown that the influx of Cubans to 
Miami in the early eighties did not have a negative impact on the wages 
of blacks living in Miami.
    In conclusion let me state that comprehensive immigration reform is 
an issue that I have been taking head on since 2000. That is why I 
introduced the Save America Comprehensive Immigration Act of 2007. As 
you know I come from the great state of Texas, a border state. I have 
first hand knowledge of the wonderful contributions that the 
immigration population has made to the greater Houston community. This 
is why I have no fear, reservations, or brutal misconceptions about the 
immigrant population that some may have. I hope my colleagues in 
Congress heed my message and carefully consider the facts, and not the 
myths.
 Letter from a majority of the minority Members of the Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
Law requesting a minority day of hearing to the Honorable Zoe Lofgren, 
Chairwoman, Subcommittee on Immigration, Citizenship, Refugees, Border 
                    Security, and International Law

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  ``The Composite National'' by Frederick Douglass, submitted by the 
   Honorable John Conyers, Jr., Chairman, Committee on the Judiciary
    As nations are among the largest and the most complete divisions 
into which society is formed, the grandest aggregations of organized 
human power; as they raise to observation and distinction the world's 
greatest men, and call into requisition the highest order of talent and 
ability for their guidance, preservation and success, they are ever 
among the most attractive, instructive and useful subjects of thought, 
to those just entering upon the duties and activities of life.
    The simple organization of a people into a National body, composite 
or otherwise, is of itself and impressive fact. As an original 
proceeding, it marks the point of departure of a people, from the 
darkness and chaos of unbridled barbarism, to the wholesome restraints 
of public law and society. It implies a willing surrender and 
subjection of individual aims and ends, often narrow and selfish, to 
the broader and better ones that arise out of society as a whole. It is 
both a sign and a result of civilization.
    A knowledge of the character, resources and proceedings of other 
nations, affords us the means of comparison and criticism, without 
which progress would be feeble, tardy, and perhaps, impossible. It is 
by comparing one nation with another, and one learning from another, 
each competing with all, and all competing with each, that hurtful 
errors are exposed, great social truths discovered, and the wheels of 
civilization whirled onward.
    I am especially to speak to you of the character and mission of the 
United States, with special reference to the question whether we are 
the better or the worse for being composed of different races of men. I 
propose to consider first, what we are, second, what we are likely to 
be, and, thirdly, what we ought to be.
    Without undue vanity or unjust depreciation of others, we may claim 
to be, in many respects, the most fortunate of nations. We stand in 
relation to all others, as youth to age. Other nations have had their 
day of greatness and glory; we are yet to have our day, and that day is 
coming. The dawn is already upon us. It is bright and full of promise. 
Other nations have reached their culminating point. We are at the 
beginning of our ascent. They have apparently exhausted the conditions 
essential to their further growth and extension, while we are abundant 
in all the material essential to further national growth and greatness.
    The resources of European statesmanship are now sorely taxed to 
maintain their nationalities at their ancient height of greatness and 
power.
    American statesmanship, worthy of the name, is now taxing its 
energies to frame measures to meet the demands of constantly increasing 
expansion of power, responsibility and duty.
    Without fault or merit on either side, theirs or ours, the balance 
is largely in our favor. Like the grand old forests, renewed and 
enriched from decaying trunks once full of life and beauty, but now 
moss-covered, oozy and crumbling, we are destined to grow and flourish 
while they decline and fade.
    This is one view of American position and destiny. It is proper to 
notice that it is not the only view. Different opinions and conflicting 
judgments meet us here, as elsewhere.
    It is thought by many, and said by some, that this Republic has 
already seen its best days; that the historian may now write the story 
of its decline and fall.
    Two classes of men are just now especially afflicted with such 
forebodings. The first are those who are croakers by nature--the men 
who have a taste for funerals, and especially National funerals. They 
never see the bright side of anything and probably never will. Like the 
raven in the lines of Edgar A. Poe they have learned two words, and 
these are ``never more.'' They usually begin by telling us what we 
never shall see. Their little speeches are about as follows: You will 
never see such Statesmen in the councils of the nation as Clay, Calhoun 
and Webster. You will never see the South morally reconstructed and our 
once happy people again united. You will never see the Government 
harmonious and successful while in the hands of different races. You 
will never make the negro work without a master, or make him an 
intelligent voter, or a good and useful citizen. The last never is 
generally the parent of all the other little nevers that follow.
    During the late contest for the Union, the air was full of nevers, 
every one of which was contradicted and put to shame by the result, and 
I doubt not that most of those we now hear in our troubled air, will 
meet the same fate.
    It is probably well for us that some of our gloomy prophets are 
limited in their powers, to prediction. Could they command the 
destructive bolt, as readily as they command the destructive world, it 
is hard to say what might happen to the country. They might fulfill 
their own gloomy prophesies. Of course it is easy to see why certain 
other classes on men speak hopelessly concerning us.
    A Government founded upon justice, and recognizing the equal rights 
of all men; claiming higher authority for existence, or sanction for 
its laws, that nature, reason, and the regularly ascertained will of 
the people; steadily refusing to put its sword and purse in the service 
of any religious creed or family is a standing offense to most of the 
Governments of the world, and to some narrow and bigoted people among 
ourselves.
    To those who doubt and deny the preponderance of good over evil in 
human nature; who think the few are made to rule, and many to serve; 
who put rank above brotherhood, and race above humanity; who attach 
more importance to ancient forms than to the living realities of the 
present; who worship power in whatever hands it may be lodged and by 
whatever means it may have been obtained; our Government is a mountain 
of sin, and, what is worse, its [sic] seems confirmed in its 
transgressions.
    One of the latest and most potent European prophets, one who has 
felt himself called upon for a special deliverance concerning us and 
our destiny as a nation, was the late Thomas Carlyle. He described us 
as rushing to ruin, not only with determined purpose, but with 
desperate velocity.
    How long we have been on this high road to ruin, and when we may 
expect to reach the terrible end our gloomy prophet, enveloped in the 
fogs of London, has not been pleased to tell us.
    Warnings and advice are not to be despised, from any quarter, and 
especially not from one so eminent as Mr. Carlyle; and yet Americans 
will find it hard to heed even men like him, if there be any in the 
world like him, while the animus is so apparent, bitter and perverse.
    A man to whom despotism is Savior and Liberty the destroyer of 
society,--who, during the last twenty years of his life, in every 
contest between liberty and oppression, uniformly and promptly took 
sides with the oppressor; who regarded every extension of the right of 
suffrage, even to white men in his own country, as shooting Niagara; 
who gloats over deeds of cruelty, and talked of applying to the backs 
of men the beneficent whip, to the great delight of many, the slave 
drivers of America in particular, could have little sympathy with our 
Emancipated and progressive Republic, or with the triumphs of liberty 
anywhere.
    But the American people can easily stand the utterances of such a 
man. They however have a right to be impatient and indignant at those 
among ourselves who turn the most hopeful portents into omens of 
disaster, and make themselves the ministers of despair when they should 
be those of hope, and help cheer on the country in the new and grand 
career of justice upon which it has now so nobly and bravely entered. 
Of errors and defects we certainly have not less than our full share, 
enough to keep the reformer awake, the statesman busy, and the country 
in a pretty lively state of agitation for some time to come. Perfection 
is an object to be aimed at by all, but it is not an attribute of any 
form of Government. Neutrality is the law for all. Something different, 
something better, or something worse may come, but so far as respects 
our present system and form of Government, and the altitude we occupy, 
we need not shrink from comparison with any nation of our times. We are 
today the best fed, the best clothed, the best sheltered and the best 
instructed people in t he world.
    There was a time when even brave men might look fearfully at the 
destiny of the Republic. When our country was involved in a tangled 
network of contradictions; when vast and irreconcilable social forces 
fiercely disputed for ascendancy and control; when a heavy curse rested 
upon our very soil, defying alike the wisdom and the virtue of the 
people to remove it; when our professions were loudly mocked by our 
practice and our name was a reproach and a by word to a mocking earth; 
when our good ship of state, freighted with the best hopes of the 
oppressed of all nations, was furiously hurled against the hard and 
flinty rocks of derision, and every cord, bolt, beam and bend in her 
body quivered beneath the shock, there was some apology for doubt and 
despair. But that day has happily passed away. The storm has been 
weathered, and portents are nearly all in our favor.
    There are clouds, wind, smoke and dust and noise, over head and 
around, and there always will be; but no genuine thunder, with 
destructive bolt, menaces from any quarter of the sky.
    The real trouble with us was never our system or form of 
Government, or the principles underlying it; but the peculiar 
composition of our people, the relations existing between them and the 
compromising spirit which controlled the ruling power of the country.
    We have for along time hesitated to adopt and may yet refuse to 
adopt, and carry out, the only principle which can solve that 
difficulty and give peace, strength and security to the Republic, and 
that is the principle of absolute equality.
    We are a country of all extremes--, ends and opposites; the most 
conspicuous example of composite nationality in the world. Our people 
defy all the ethnological and logical classifications. In races we 
range all the way from black to white, with intermediate shades which, 
as in the apocalyptic vision, no man can name a number.
    In regard to creeds and faiths, the condition is no better, and no 
worse. Differences both as to race and to religion are evidently more 
likely to increase than to diminish.
    We stand between the populous shores of two great oceans. Our land 
is capable of supporting one fifth of all the globe. Here, labor is 
abundant and here labor is better remunerated than any where else. All 
moral, social and geographical causes, conspire to bring to us the 
peoples of all other over populated countries.
    Europe and Africa are already here, and the Indian was here before 
either. He stands today between the two extremes of black and white, 
too proud to claim fraternity with either, and yet too weak to 
withstand the power of either. Heretofore the policy of our government 
has been governed by race pride, rather than by wisdom. Until recently, 
neither the Indian nor the negro has been treated as a part of the body 
politic. No attempt has been made to inspire either with a sentiment of 
patriotism, but the hearts of both races have been diligently sown with 
the dangerous seeds of discontent and hatred.
    The policy of keeping the Indians to themselves, has kept the 
tomahawk and scalping knife busy upon our borders, and has cost us 
largely in blood and treasure. Our treatment of the negro has slacked 
humanity, and filled the country with agitation and ill-feeling and 
brought the nation to the verge of ruin.
    Before the relations of these two races are satisfactorily settled, 
and in spite of all opposition, a new race is making its appearance 
within our borders, and claiming attention. It is estimated that not 
less than one hundred thousand Chinamen, are now within the limits of 
the United States. Several years ago every vessel, large or small, of 
steam or sail, bound to our Pacific coast and hailing from the Flowery 
kingdom, added to the number and strength of this new element of our 
population.
    Men differ widely as to the magnitude of this potential Chinese 
immigration. The fact that by the late treaty with China, we bind 
ourselves to receive immigrants from that country only as the subjects 
of the Emperor, and by the construction, at least, are bound not to 
[naturalize] them, and the further fact that Chinamen themselves have a 
superstitious devotion to their country and an aversion to permanent 
location in any other, contracting even to have their bones carried 
back, should they die abroad, and from the fact that many have returned 
to China, and the still more stubborn [fact] that resistance to their 
coming has increased rather than diminished, it is inferred that we 
shall never have a large Chinese population in America. This however is 
not my opinion.
    It may be admitted that these reasons, and others, may check and 
moderate the tide of immigration; but it is absurd to think that they 
will do more than this. Counting their number now, by the thousands, 
the time is not remote when they will count them by the millions. The 
Emperor's hold upon the Chinamen may be strong, but the Chinaman's hold 
upon himself is stronger.
    Treaties against naturalization, like all other treaties, are 
limited by circumstances. As to the superstitious attachment of the 
Chinese to China, that, like all other superstitions, will dissolve in 
the light and heat of truth and experience. The Chinaman may be a 
bigot, but it does not follow that he will continue to be one, 
tomorrow. He is a man, and will be very likely to act like a man. He 
will not be long in finding out that a country which is good enough to 
live in, is good enough to die in; and that a soil that was good enough 
to hold his body while alive, will be good enough to hold his bones 
when he is dead.
    Those who doubt a large immigration, should remember that the past 
furnishes no criterion as a basis of calculation. We live under new and 
improved conditions of migration, and these conditions are constantly 
improving. America is no longer an obscure and inaccessible country. 
Our ships are in every sea, our commerce in every port, our language is 
heard all around the globe, steam and lightning have revolutionized the 
whole domain of human thought. Changed all geographical relations, make 
a day of the present seem equal to a thousand years of the past, and 
the continent that Columbus only conjectured four centuries ago is now 
the centre of the world.
    I believe that Chinese immigration on a large scale will yet be our 
irrepressible fact. The spirit of race pride will not always prevail. 
The reasons for this opinion are obvious; China is a vastly overcrowded 
country. Her people press against each other like cattle in a rail car. 
Many live upon the water, and have laid out streets upon the waves. 
Men, like bees, want elbow room. When the hive is overcrowded, the bees 
will swarm, and will be likely to take up their abode where they find 
the best prospect for honey. In matters of this sort, men are very much 
like bees. Hunger will not be quietly endured, even in the celestial 
empire, when it is once generally known that there is bread enough and 
to spare in America. What Satan said of Job is true of the Chinaman, as 
well as of other men, ``All that a man hath will he give for his 
life.'' They will come here to live where they know the means of living 
are in abundance.
    The same mighty forces which have swept our shores the overflowing 
populations of Europe; which have reduced the people of Ireland three 
millions below its normal standard; will operate in a similar manner 
upon the hungry population of China and other parts of Asia. Home has 
its charms, and native land has its charms, but hunger, oppression, and 
destitution, will desolve these charms and send men in search of new 
countries and new homes.
    Not only is there a Chinese motive behind this probable 
immigration, but there is also an American motive which will play its 
part, one which will be all the more active and energetic because there 
is in it an element of pride, of bitterness, and revenge.
    Southern gentlemen who led in the late rebellion, have not parted 
with their convictions at this point, any more than at others. They 
want to be independent of the negro. They believed in slavery and they 
believe in it still. They believed in an aristocratic class and they 
believe in it still, and though they have lost slavery, one element 
essential to such a class, they still have two important conditions to 
the reconstruction of that class. They have intelligence and they have 
land. Of these, the land is the more important. They cling to it with 
all the tenacity of a cherished superstition. They will neither sell to 
the negro, nor let the carpet baggers have it in peace, but are 
determined to hold it for themselves and their children forever. They 
have not yet learned that when a principle is gone, the incident must 
go also; that what was wise and proper under slavery, is foolish and 
mischievous in a state of general liberty; that the old bottles are 
worthless when the new wine has come; but they have found that land is 
a doubtful benefit where there are no hands to it.
    Hence these gentlemen have turned their attention to the Celestial 
Empire. They would rather have laborers who will work for nothing; but 
as they cannot get the negroes on these terms, they want Chinamen who, 
they hope, will work for next to nothing.
    Companies and associations may be formed to promote this Mongolian 
invasion. The loss of the negro is to gain them, the Chinese; and if 
the thing works well, abolition, in their opinion, will have proved 
itself to be another blessing in disguise. To the statesman it will 
mean Southern independence. To the pulpit it will be the hand of 
Providence, and bring about the time of the universal dominion of the 
Christian religion. To all but the Chinaman and the negro, it will mean 
wealth, ease and luxury.
    But alas, for all the selfish inventions and dreams of men! The 
Chinaman will not long be willing to wear the cast off shoes of the 
negro, and if he refuses, there will be trouble again. The negro worked 
and took his pay in religion and the lash. The Chinaman is a different 
article and will want the cash. He may, like the negro, accept 
Christianity, but unlike the negro he will not care to pay for it in 
labor under the lash. He had the golden rule in substance, five hundred 
years before the coming of Christ, and has notions of justice that are 
not to be confused or bewildered by any of our ``Cursed be Canaan'' 
religion.
    Nevertheless, the experiment will be tried. So far as getting the 
Chinese into our country is concerned, it will yet be a success. This 
elephant will be drawn by our Southern brethren, though they will 
hardly know in the end what to do with him.
    Appreciation of the value of Chinamen as laborers will, I 
apprehend, become general in this country. The North was never 
indifferent to Southern influence and example, and it will not be so in 
this instance.
    The Chinese in themselves have first rate recommendations. They are 
industrious, docile, cleanly, frugal; they are dexterious of hand, 
patient of toil, marvelously gifted in the power of imitation, and have 
but few wants. Those who have carefully observed their habits in 
California, say they can subsist upon what would be almost starvation 
to others.
    The conclusion of the whole will be that they will want to come to 
us, and as we become more liberal, we shall want them to come, and what 
we want will normally be done.
    They will no longer halt upon the shores of California. They will 
borrow no longer in her exhausted and deserted gold mines where they 
have gathered wealth from bareness, taking what others left. They will 
turn their backs not only upon the Celestial Empire, but upon the 
golden shores of the Pacific, and the wide waste of waters whose 
majestic waves spoke to them of home and country. They will withdraw 
their eyes from the glowing west and fix them upon the rising sun. They 
will cross the mountains, cross the plains, descend our rivers, 
penetrate to the heart of the country and fix their homes with us 
forever.
    Assuming then that this immigration already has a foothold and will 
continue for many years to come, we have a new element in our national 
composition which is likely to exercise a large influence upon the 
thought and the action of the whole nation.
    The old question as to what shall be done with [the] negro will 
have to give place to the greater question, ``what shall be done with 
the Mongolian'' and perhaps we shall see raised one even still greater 
question, namely, what will the Mongolian do with both the negro and 
the whites?
    Already has the matter taken this shape in California and on the 
Pacific Coast generally. Already has California assumed a bitterly 
unfriendly attitude toward the Chinamen. Already has she driven them 
from her altars of justice. Already has she stamped them as outcasts 
and handed them over to popular contempt and vulgar jest. Already are 
they the constant victims of cruel harshness and brutal violence. 
Already have our Celtic brothers, never slow to execute the behests of 
popular prejudice against the weak and defenseless, recognized in the 
heads of these people, fit targets for their shilalahs. Already, too, 
are their associations formed in avowed hostility to the Chinese.
    In all this there is, of course, nothing strange. Repugnance to the 
presence and influence of foreigners is an ancient feeling among men. 
It is peculiar to no particularly race or nation. It is met with not 
only in the conduct of one nation toward another, but in the conduct of 
the inhabitants of different parts of the same country, some times of 
the same city, and even of the same village. ``Lands intersected by a 
narrow frith, abhor each other. Mountains interposed, make enemies of 
nations.'' To the Hindoo, every man not twice born, is Mleeka. To the 
Greek, every man not speaking Greek, is a barbarian. To the Jew, every 
one not circumcised, is a gentile. To the Mahometan, every man not 
believing in the prophet, is a kaffe. I need not repeat here the 
multitude of reproachful epithets expressive of the same sentiment 
among ourselves. All who are not to the manor born, have been made to 
feel the lash and sting of these reproachful names.
    For this feeling there are many apologies, for there was never yet 
an error, however flagrant and hurtful, for which some plausible 
defense could not be framed. Chattel slavery, king craft, priest craft, 
pious frauds, intolerance, persecution, suicide, assassination, 
repudiation, and a thousand other errors and crimes, have all had their 
defenses and apologies.
    Prejudice of race and color has been equally upheld. The two best 
arguments in its defense are, first, the worthlessness of the class 
against which it was directed; and, second; that he feeling itself is 
entirely natural.
    The way to overcome the first argument is, to work for the 
elevation of those deemed worthless, and thus make them worthy of 
regard and they will soon become worthy and not worthless. As to the 
natural argument it may be said, that nature has many sides. Many 
things are in a certain sense natural, which are neither wise nor best. 
It is natural to walk, but shall men therefore refuse to ride? It is 
natural to ride on horseback, shall men therefore refuse steam and 
rail? Civilization is itself a constant war upon some forces in nature; 
shall we therefore abandon civilization and go back to savage life?
    Nature has two voices, the one is high, the other low; one is in 
sweet accord with reason and justice, and the other apparently at war 
with both. The more men really know of the essential nature of things, 
and on of the true relation of mankind, the freer they are from 
prejudices of every kind. The child is afraid of the giant form of his 
own shadow. This is natural, but he will part with his fears when he is 
older and wiser. So ignorance is full of prejudice, but it will 
disappear with enlightenment. But I pass on.
    I have said that the Chinese will come, and have given some reasons 
why we may expect them in very large numbers in no very distant future. 
Do you ask, if I favor such immigration, I answer I would. Would you 
have them naturalized, and have them invested with all the rights of 
American citizenship? I would. Would you allow them to vote? I would. 
Would you allow them to hold office? I would.
    But are there not reasons against all this? Is there not such a law 
or principle as that of self-preservation? Does not every race owe 
something to itself? Should it not attend to the dictates of common 
sense? Should not a superior race protect itself from contact with 
inferior ones? Are not the white people the owners of this continent? 
Have they not the right to say, what kind of people shall be allowed to 
come here and settle? Is there not such a thing as being more generous 
than wise? In the effort to promote civilization may we not corrupt and 
destroy what we have? Is it best to take on board more passengers than 
the ship will carry?
    To all of this and more I have one among many answers, together 
satisfactory to me, though I cannot promise that it will be so to you.
    I submit that this question of Chinese immigration should be 
settled upon higher principles than those of a cold and selfish 
expediency.
    There are such things in the world as human rights. They rest upon 
no conventional foundation, but are external, universal, and 
indestructible. Among these, is the right of locomotion; the right of 
migration; the right which belongs to no particular race, but belongs 
alike to all and to all alike. It is the right you assert by staying 
here, and your fathers asserted by coming here. It is this great right 
that I assert for the Chinese and Japanese, and for all other varieties 
of men equally with yourselves, now and forever. I know of no rights of 
race superior to the rights of humanity, and when there is a supposed 
conflict between human and national rights, it is safe to go to the 
side of humanity. I have great respect for the blue eyed and light 
haired races of America. They are a mighty people. In any struggle for 
the good things of this world they need have no fear. They have no need 
to doubt that they will get their full share.
    But I reject the arrogant and scornful theory by which they would 
limit migratory rights, or any other essential human rights to 
themselves, and which would make them the owners of this great 
continent to the exclusion of all other races of men.
    I want a home here not only for the negro, the mulatto and the 
Latin races; but I want the Asiatic to find a home here in the United 
States, and feel at home here, both for his sake and for ours. Right 
wrongs no man. If respect is had to majorities, the fact that only one 
fifth of the population of the globe is white, the other four fifths 
are colored, ought to have some weight and influence in disposing of 
this and similar questions. It would be a sad reflection upon the laws 
of nature and upon the idea of justice, to say nothing of a common 
Creator, if four fifths of mankind were deprived of the rights of 
migration to make room for the one fifth. If the white race may exclude 
all other races from this continent, it may rightfully do the same in 
respect to all other lands, islands, capes and continents, and thus 
have all the world to itself. Thus what would seem to belong to the 
whole, would become the property only of a part. So much for what is 
right, now let us see what is wise.
    And here I hold that a liberal and brotherly welcome to all who are 
likely to come to the United states, is the only wise policy which this 
nation can adopt.
    It has been thoughtfully observed, that every nation, owing to its 
peculiar character and composition, has a definite mission in the 
world. What that mission is, and what policy is best adapted to assist 
in its fulfillment, is the business of its people and its statesmen to 
know, and knowing, to make a noble use of said knowledge.
    I need to stop here to name or describe the missions of other and 
more ancient nationalities. Ours seems plain and unmistakable. Our 
geographical position, our relation to the outside world, our 
fundamental principles of Government, world embracing in their scope 
and character, our vast resources, requiring all manner of labor to 
develop them, and our already existing composite population, all 
conspire to one grand end, and that is to make us the make perfect 
national illustration of the unit and dignity of the human family, that 
the world has ever seen.
    In whatever else other nations may have been great and grand, our 
greatness and grandeur will be found in the faithful application of the 
principle of perfect civil equality to the people of all races and of 
all creeds, and to men of no creeds. We are not only bound to this 
position by our organic structure and by our revolutionary antecedents, 
but by the genius of our people. Gathered here, from all quarters of 
the globe by a common aspiration for rational liberty as against caste, 
divine right Governments and privileged classes, it would be unwise to 
be found fighting against ourselves and among ourselves; it would be 
madness to set up any one race above another, or one religion above 
another, or proscribe any on account of race color or creed.
    The apprehension that we shall be swamped or swallowed up by 
Mongolian civilization; that the Caucasian race may not be able to hold 
their own against that vast incoming population, does not seem entitled 
to much respect. Though they come as the waves come, we shall be 
stronger if we receive them as friends and give them a reason for 
loving our country and our institutions. They will find here a deeply 
rooted, indigenous, growing civilization, augmented by an ever 
increasing stream of immigration from Europe; and possession is nine 
points of the law in this case, as well as in others. They will come as 
strangers, we are at home. They will come to us, not we to them. They 
will come in their weakness, we shall meet them in our strength. They 
will come as individuals, we will meet them in multitudes, and with all 
the advantages of organization. Chinese children are in American 
schools in San Francisco, none of our children are in Chinese schools, 
and probably never will be, though in some things they might well teach 
us valuable lessons. Contact with these yellow children of The 
Celestial Empire would convince us that the points of human difference, 
great as they, upon first sight, seem, are as nothing compared with the 
points of human agreement. Such contact would remove mountains of 
prejudice.
    It is said that it is not good for man to be alone. This is true 
not only in the sense in which our woman's rights friends so zealously 
and wisely teach, but it is true as to nations.
    The voice of civilization speaks an unmistakable language against 
the isolation of families, nations and races, and pleads for composite 
nationality as essential to her triumphs.
    Those races of men which have maintained the most separate and 
distinct existence for the longest periods of time; which have had the 
least intercourse with other races of men, are a standing confirmation 
of the folly of isolation. The very soil of the national mind becomes, 
in such cases, barren, and can only be resuscitated by assistance from 
without.
    Look at England, whose mighty power is now felt, and for centuries 
has been felt, all around the world. It is worthy of special remark, 
that precisely those parts of that proud Island which have received the 
largest and most diverse populations, are today, the parts most 
distinguished for industry, enterprise, invention and general 
enlightenment. In Wales, and in the Highlands of Scotland, the boast is 
made of their pure blood and that they were never conquered, but no man 
can contemplate them without wishing they had been conquered.
    They are far in the rear of every other part of the English realm 
in all the comforts and conveniences of life, as well as in mental and 
physical development. Neither law nor learning descends to us from the 
mountains of Wales or from the Highlands of Scotland. The ancient 
Briton whom Julius Caesar would not have a slave, is not to be compared 
with the round, burly, a[m]plitudinous Englishman in many of the 
qualities of desirable manhood.
    The theory that each race of men has come special faculty, some 
peculiar gift or quality of mind or heart, needed to the perfection and 
happiness of the whole is a broad and beneficent theory, and besides 
its beneficence, has in its support, the voice of experience. Nobody 
doubts this theory when applied to animals and plants, and no one can 
show that it is not equally true when applied to races.
    All great qualities are never found in any one man or in any one 
race. The whole of humanity, like the whole of everything else, is ever 
greater than a part. Men only know themselves by knowing others, and 
contact is essential to this knowledge. In one race we perceive the 
predominance of imagination; in another, like Chinese, we remark its 
total absence. In one people, we have the reasoning faculty, in 
another, for music; in another, exists courage; in another, great 
physical vigor; and so on through the whole list of human qualities. 
All are needed to temper, modify, round and complete.
    Not the least among the arguments whose consideration should 
dispose to welcome among us the peoples of all countries, nationalities 
and color, is the fact that all races and varieties of men are 
improvable. This is the grand distinguishing attribute of humanity and 
separates man from all other animals. If it could be shown that any 
particular race of men are literally incapable of improvement, we might 
hesitate to welcome them here. But no such men are anywhere to be 
found, and if there were, it is not likely that they would ever trouble 
us with their presence.
    The fact that the Chinese and other nations desire to come and do 
come, is a proof of their capacity for improvement and of their fitness 
to come.
    We should take council of both nature and art in the consideration 
of this question. When the architect intends a grand structure, he 
makes the foundation broad and strong. We should imitate this prudence 
in laying the foundation of the future Republic. There is a law of 
harmony in departments of nature. The oak is in the acorn. The career 
and destiny of individual men are enfolded in the elements of which 
they are composed. The same is true of a nation. It will be something 
or it will be nothing. It will be great, or it will be small, according 
to its own essential qualities. As these are rich and varied, or poor 
and simple, slender and feeble, broad and strong, so will be the life 
and destiny of the nation itself.
    The stream cannot rise higher than its source. The ship cannot sail 
faster than the wind. The flight of the arrow depends upon the strength 
and elasticity of the bow; and as with these, so with a nation.
    If we would reach a degree of civilization higher and grander than 
any yet attained, we should welcome to our ample continent all nations, 
kindreds [sic] tongues and peoples; and as fast as they learn our 
language and comprehend the duties of citizenship, we should 
incorporate them into the American body politic. The outspread wings of 
the American eagle are broad enough to shelter all who are likely to 
come.
    As a matter of selfish policy, leaving right and humanity out of 
the question, we cannot wisely pursue any other course. Other 
Governments mainly depend for security upon the sword; our depends 
mainly upon the friendship of its people. In all matters,--in time of 
peace, in time of war, and at all times,--it makes its appeal to all 
the people, and to all classes of the people. Its strength lies in 
their friendship and cheerful support in every time of need, and that 
policy is a mad one which would reduce the number of its friends by 
excluding those who would come, or by alienating those who are already 
here.
    Our Republic is itself a strong argument in favor of composite 
nationality. It is no disparagement to Americans of English descent, to 
affirm that much of the wealth, leisure, culture, refinement and 
civilization of the country are due to the arm of the negro and the 
muscle of the Irishman. Without these and the wealth created by their 
sturdy toil, English civilization had still lingered this side of the 
Alleghanies [sic], and the wolf still be howling on their summits.
    To no class of our population are we more indebted to valuable 
qualities of head, heart and hand than the German. Say what we will of 
their lager, their smoke and their metaphysics they have brought to us 
a fresh, vigorous and child-like nature; a boundless facility in the 
acquisition of knowledge; a subtle and far reaching intellect, and a 
fearless love of truth. Though remarkable for patient and laborious 
thought the true German is a joyous child of freedom, fond of manly 
sports, a lover of music, and a happy man generally. Though he never 
forgets that he is a German, he never fails to remember that he is an 
American.
    A Frenchman comes here to make money, and that is about all that 
need be said of him. He is only a Frenchman. He neither learns our 
language nor loves our country. His hand is on our pocket and his eye 
on Paris. He gets what he wants and like a sensible Frenchman, returns 
to France to spend it.
    Now let me answer briefly some objections to the general scope of 
my arguments. I am told that science is against me; that races are not 
all of one origin, and that the unity theory of human origin has been 
exploded. I admit that this is a question that has two sides. It is 
impossible to trace the threads of human history sufficiently near 
their starting point to know much about the origin of races.
    In disposing of this question whether we shall welcome or repel 
immigration from China, Japan, or elsewhere, we may leave the 
differences among the theological doctors to be settled by themselves.
    Whether man originated at one time and one or another place; 
whether there was one Adam or five, or five hundred, does not affect 
the question.
    The grand right of migration and the great wisdom of incorporating 
foreign elements into our body politic, are founded not upon any 
genealogical or archeological theory, however learned, but upon the 
broad fact of a common human nature.
    Man is man, the world over. This fact is affirmed and admitted in 
any effort to deny it. The sentiments we exhibit, whether love or hate, 
confidence or fear, respect or contempt, will always imply a like 
humanity.
    A smile or a tear has not nationality; joy and sorrow speak alike 
to all nations, and they, above all the confusion of tongues, proclaim 
the brotherhood of man.
    It is objected to the Chinaman that he is secretive and 
treacherous, and will not tell the truth when he thinks it for his 
interest to tell a lie.
    There may be truth in all this; it sounds very much like the 
account of man's heart given in the creeds. If he will not tell the 
truth except when it is for his interest to do so, let us make it for 
this interest to tell the truth We can do it by applying to him the 
same principle of justice that we apply ourselves.
    But I doubt if the Chinese are more untruthful than other people. 
At this point I have one certain test,--mankind are not held together 
by lies. Trust is the foundation of society. Where there is no truth, 
there can be no trust, and where there is no trust there can be no 
society. Where there is society, there is trust, and where there is 
trust, there is something upon which it is supported. Now a people who 
have confided in each other for five thousand years; who have extended 
their empire in all direction till it embraces on e fifth of the 
population of the glove; who hold important commercial relations with 
all nations; who are now entering into treaty stipulations with 
ourselves, and with all the great European powers, cannot be a nation 
of cheats and liars, but must have some respect for veracity. The very 
existence of China for so long a period, and her progress in 
civilization, are proofs of her truthfulness. But it is said that the 
Chinese is a heathen, and that he will introduce his heathen rights and 
superstitions here. This is the last objection which should come from 
those who profess the all conquering power of the Christian religion. 
If that religion cannot stand contact with the Chinese, religion or no 
religion, so much the worse for those who have adopted it. It is the 
Chinaman, not the Christian, who should be alarmed for his faith. He 
exposes that faith to great dangers by exposing it to the freer air of 
America. But shall we send missionaries to the heathen and yet deny the 
heathen the right to come to us? I think that a few honest believers in 
the teachings of Confucius would be well employed in expounding his 
doctrines among us.
    The next objection to the Chinese is that he cannot be induced to 
swear by the Bible. This is to me one of his best recommendations. The 
American people will swear by anything in the heavens above or in the 
earth beneath. We are a nation of swearers. We swear by a book whose 
most authoritative command is to swear not at all.
    It is not of so much importance what a man swears by, as what he 
swears to, and if the Chinaman is so true to his convictions that he 
cannot be tempted or even coerced into so popular a custom as swearing 
by the Bible, he gives good evidence of his integrity and his veracity.
    Let the Chinaman come; he will help to augment the national wealth. 
He will help to develop our boundless resources; he will help to pay 
off our national debt. He will help to lighten the burden of national 
taxation. He will give us the benefit of his skill as a manufacturer 
and tiller of the soil, in which he is unsurpassed.
    Even the matter of religious liberty, which has cost the world more 
tears, more blood and more agony, than any other interest, will be 
helped by his presence. I know of no church, however tolerant; of no 
priesthood, however enlightened, which could be safely trusted with the 
tremendous power which universal conformity would confer. We should 
welcome all men of every shade of religious opinion, as among the best 
means of checking the arrogance and intolerance which are the almost 
inevitable concomitants of general conformity. Religious liberty always 
flourishes best amid the clash and competition of rival religious 
creeds.
    To the minds of superficial men, the fusion of different races has 
already brought disaster and ruin upon the country. The poor negro has 
been charged with all our woes. In the haste of these men they forgot 
that our trouble was not ethnographical, but moral; that it was not a 
difference of complexion, but a difference of conviction. It was not 
the Ethiopian as a man, but the Ethiopian as a slave and a covetted 
[sic] article of merchandise, that gave us trouble.
    I close these remarks as I began. If our action shall be in 
accordance with the principles of justice, liberty, and perfect human 
equality, no eloquence can adequately portray the greatness and 
grandeur of the future of the Republic.
    We shall spread the network of our science and civilization over 
all who seek their shelter whether from Asia, Africa, or the Isles of 
the sea. We shall mold them all, each after his kind, into Americans; 
Indian and Celt; negro and Saxon; Latin and Teuton; Mongolian and 
Caucasian; Jew and Gentile; all shall here bow to the same law, speak 
the same language, support the same Government, enjoy the same liberty, 
vibrate with the same national enthusiasm, and seek the same national 
ends.

----------
Sources:
Douglass Papers, Library of Congress, microfilm reel 14.
  Letter from Eric N. Gutierrez, Legislative Staff Attorney, Mexican 
   American Legal Defense and Educational Fund to the Honorable Zoe 
    Lofgren, Chairwoman, Subcommittee on Immigration, Citizenship, 
            Refugees, Border Security, and International Law

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Answers to post-hearing questions posed by the Honorable Steve King 
 from the Honorable Leon R. Sequeira, Assistant Secretary for Policy, 
                        U.S. Department of Labor

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Answers to post-hearing questions posed by the Honorable Steve King 
from Patricia Buckley, Ph.D., Senior Economic Advisor to the Secretary, 
                      U.S. Department of Commerce
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Answers to post-hearing questions posed by the Honorable Steve King 
   from Peter R. Orszag, Ph.D., Director, Congressional Budget Office

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
